<html>
<title> - ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2006 BUDGET</title>
<body><pre>[Senate Hearing 109-843]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-843
 
                   ENVIRONMENTAL PROTECTION AGENCY'S 
                        FISCAL YEAR 2006 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 9, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________



                      U.S. GOVERNMENT PRINTING OFFICE
32-207 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)









  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 9, 2005
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     8
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     6
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    13
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey, prepared statement.....................................    38
Obama, Hon. Barack, U.S. Senator from the State of Illinois......    14
Thune, Hon. John, U.S. Senator from the State of South Dakota....    15
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    11

                               WITNESSES

Johnson, Hon. Stephen L., Acting Administrator, U.S. 
  Environmental Protection Agency; Accompanied by: Charles E. 
  Johnson, Chief Financial Officer, U.S. Environmental Protection 
  Agency; Benjamin Grumbles, Assistant Administrator, Office of 
  Water, U.S. Environmental Protection Agency; Tom Dunne, Deputy 
  Assistant Administrator, Office of Solid Waste and Emergency 
  Response, U.S. Environmental Protection Agency; Ann Klee, 
  General Counsel, U.S. Environmental Protection Agency; Jeff 
  Holmstead, Assistant Administrator, Office of Air and 
  Radiation, U.S. Environmental Protection Agency; Susan B. 
  Hazen, Acting Assistant Administrator, Office of Prevention, 
  Pesticides, and Toxic Substances, U.S. Environmental Protection 
  Agency.........................................................    16
    Prepared statement...........................................    36
    Responses to additional questions from:
        Senator Boxer............................................    52
        Senator Inhofe...........................................    41
        Senator Jeffords.........................................    50
        Senator Lautenberg.......................................   133
        Senator Vitter...........................................    70

                          ADDITIONAL MATERIAL

Environmental Protection Agency:
    Brownfields program expectations and supporting budget 
      documentation..............................................   135
    Funding requested for leaking underground storage tanks......   136
    General Information on EPA enforcement.......................   137
    Guidance and a proposed rule clarifying: Pesticides and the 
      Clean Water Act............................................   138
    National Academy of Science study on perchlorate.............   139
    Number of potential Brownfield sites.........................   140
    Sites ranked by the National Prioritization Panel that 
      received funding in fiscal year (FY) 2004..................   141
    Spill prevention control and countermeasure program..........   143
    State Revolving Loan Fund (SRF)..............................   144
    Superfund Budget.............................................   146
    Wastewater Security..........................................   147
    Why clear skies is the right approach........................   148
Letter from Kathleen C. Callahan, acting regional administrator, 
  to Senator Lautenberg, in response to inquiry on Ringwood, NJ 
  site...........................................................   149


       ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2006 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 9, 2005

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
406, Senate Dirksen Building, Hon. James M. Inhofe, (chairman 
of the committee) presiding.
    Present: Senators Inhofe, Boxer, Carper, Clinton, Isakson, 
Jeffords, Lautenberg, Murkowski, Obama, Thune, and Vitter.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. The committee will come to order. We 
welcome Administrator Johnson. I am pleased to have you testify 
before the committee on the President's fiscal year 2006 budget 
proposal for the Environmental Protection Agency.
    I expect that each Senator on the committee will wish to 
make an opening statement, as well as your opening statement 
and then 5-minute questioning, so we are going to confine 
opening statements to 5 minutes, and we would like you to 
confine yours to 5 minutes. However, your entire statement will 
be made a part of the record.
    Our Tar Creek Superfund site in northeastern Oklahoma has 
been a top priority for me for quite some time, as well as for 
the EPA. Administrator Leavitt visited, and I think that is the 
first time that someone at that level has actually visited a 
site, the first Cabinet-level official to tour it. Tar Creek is 
a 40 square-mile disaster that we now can see the light at the 
end of the tunnel. The cooperation of the EPA, as well as the 
Corps of Engineers, the State of Oklahoma, the University of 
Oklahoma, and our consortium, it looks like it is going to be 
successful.
    The Administration considers the ultra-low sulfur diesel 
rule as one of its premier environmental successes, and they 
are right that once successfully implemented, the ULSD rule 
will have benefits. However, I remain as concerned today as I 
was some 5 years ago when I first questioned the EPA on the 
rule's potential supply and deliverability impacts.
    Refiners and engine manufacturers have spent billions of 
dollars to develop technologies to meet the stringent 15 ppm 
sulfur standard, yet challenges still remain regarding the 
sufficiently accurate inline testing procedures and potential 
contamination in the pipelines and transportation 
infrastructure. So you have the pipelines with some problems, 
and others are complying with its intent. Millions of dollars 
have been invested, and yet that is a problem that we will want 
to discuss.
    I have already been working with the Agency on grants 
management for the past year, and it remains one of my top 
priorities. Each year over $4 billion, amounting to at least 
half the EPA's annual budget, is awarded in nondiscretionary 
and discretionary grants. Last year, the committee received 
testimony concerning a lack of competition in grant awards, a 
lack of demonstrable results from grants, and a general lack of 
oversight.
    In fact, the EPA IG included in her testimony the results 
of an audit of a nonprofit group where the EPA was giving 
taxpayers' dollars directly to a lobbying organization, that is 
a 501(c)(4) organization, which is illegal and certainly 
improper. This is the type of thing that we are going after. 
The EPA is competing grants, rather than freely awarding funds 
to groups that regularly engage in politics and to undermine 
this President's environmental record.
    The EPA has also developed new policies to measure 
environmental results and provide closer oversight of nonprofit 
groups. However, new policies are not enough. They must be 
followed. Real reform of grants management requires the 
attention of the highest levels of the Administration within 
the EPA and its program officers to establish a consistent and 
transparent system of awarding and monitoring grants. This 
committee will continue to take its oversight responsibility in 
regards to grants management very seriously. I am pleased that 
the EPA is working with the committee to ensure new grants 
management that protects human health and the environment.
    The Government has a role in safeguarding the Nation's 
infrastructure, which includes the roads on which we drive and 
the pipes from which we receive our water. I, like many of my 
colleagues on the committee, continue to be troubled by the 
Administration's and its predecessor's history of cuts to the 
Clean Water SRF, State revolving funds, the primary Federal 
clean water mechanism. We conducted a field hearing in my city 
of Tulsa last year during which 8 communities testified to 
struggles with both drinking water and clean water regulations. 
Just as I have tackled grants management, I intend to use this 
committee's oversight role to continue examining the costs 
imposed on our local communities by Federal water regulations.
    Not only do we need to ensure these costs are necessary 
because they are addressing legitimate public health and 
environmental threats, but evidently we also need to convince 
some that Congress and the EPA have a role in this escalating 
cost crisis.
    I look forward to next week's committee passage of the 
President's Clear Skies proposal. As my colleagues know, this 
has been one of our priorities for a long time. It is the 
largest mandatory reduction in pollutants ever proposed by any 
President. Our goal is to expand the Acid Rain Program to 
achieve greater emissions reductions, without the endless 
lawsuits that have resulted under the Clean Air Act. I look 
forward to working with the Administration to get this bill 
signed into law.
    It is going to be a difficult budget year. Budgets are 
tight and the Nation is at war. The Administration is proposing 
a 5 percent cut to the EPA's budget. I would encourage my 
colleagues who are tempted to criticize this alleged cut to 
look very closely at what has been proposed. Aside from cuts to 
the programs the Agency knows that Congress will put back, a 
few programs are given significant decreases.
    So Administrator Johnson, we are looking forward to your 
testimony, and we welcome you also Mr. Johnson, both Johnsons.
    [The prepared statement of Senator Inhofe follows:]
         Statement of Hon. James M. Inhofe, U.S. Senator from 
                         the State of Oklahoma
    Welcome Administrator Johnson. I am pleased to have you testify 
before the Committee today on President Bush's Fiscal Year 2006 budget 
proposal for the Environmental Protection Agency.
    I expect that each Senator on the Committee will wish to make an 
opening statement and will have several questions for the 
Administrator. Therefore, I am asking that opening statements be kept 
short under 5 minutes.
    The Tar Creek Superfund Site in northeastern Oklahoma has been a 
top priority for me and the EPA. When Administrator Leavitt visited the 
site with me, he became the first Cabinet level official to tour Tar 
Creek and see what we are dealing with there. Tar Creek is a 40 square-
mile site that is the No. 1 listed site on the National Priorities 
List. While, much work has been done and much credit goes to the EPA 
and specifically the Region 6 Administrator, Richard Greene, there is 
more work left to do. I want to take this opportunity to get the EPA's 
continued commitment to protect human health at Tar Creek and get this 
site cleaned up.
    The Administration considers the ultra-low sulfur diesel rule as 
one of its premiere environmental successes, and they are right that 
once successfully implemented, the ULSD rule will have benefits. 
However, I remain as concerned today as I was some 5 years ago when I 
first questioned EPA on the rule's potential supply and deliverability 
impacts. Refiners and engine manufacturers have spent billions of 
dollars to develop technologies to meet the stringent 15 ppm sulfur 
standard. Yet, challenges still remain regarding sufficiently accurate 
inline testing procedures and potential contamination in the pipeline 
and transportation infrastructure. EPA projected that the rule will 
increase diesel prices 4 or 5 cents per gallon at the pump. Given some 
of the concerns raised about contamination and inadequate testing, I 
imagine that those initial cost projections will certainly change. I 
look forward to working with EPA to ensure that the rule is implemented 
effectively while guarding against supply shortfalls and price 
increases.
    I have already been working with the Agency on grants management 
for the past year and it remains one of my top priorities. Each year 
over $4 billion, amounting to at least half the EPA's annual budget, is 
awarded in non-discretionary and discretionary grants. Last year, this 
Committee received testimony concerning a lack of competition in grant 
awards, a lack of demonstrable results from grants, and a general lack 
of oversight. In fact, the EPA IG included in her testimony the results 
of an audit of a non-profit group where EPA was giving taxpayer dollars 
directly to a lobbying organization for over 5 years. The EPA has 
responded positively to oversight in this area. By the end of this 
month, EPA will have finalized a new Web site with the most publicly 
available information ever offered on awarded grants. EPA is competing 
grants rather than freely awarding funds to groups that regularly 
engage in politics to undermine this President's environmental record. 
EPA has also developed new policies to measure environmental results 
and provide closer oversight of non-profit groups. However, new 
policies are not enough. They must be followed. Real reform of grants 
management requires the attention of the highest levels of 
administration within the EPA and its program offices to establish a 
consistent and transparent system of awarding and monitoring grants. 
This Committee will continue to take its oversight responsibility in 
regards to grants management very seriously, and I am pleased that the 
EPA is working with this Committee to ensure new grants management that 
protects human health and the environment.
    The government has a role in safeguarding the nation's 
infrastructure which includes the roads on which we drive and pipes 
from which we receive our water. I, like many of my colleagues on the 
Committee, continue to be troubled by the Administration's and its 
predecessor's history of cuts to the Clean Water SRF, the primary 
Federal clean water mechanism. We conducted a field hearing in Tulsa, 
OK last year during which 8 communities testified to struggles with 
both drinking water and clean water regulations. Just as I have tackled 
grants management, I intend to use this committee's oversight role to 
continue examining the costs imposed on our local communities by 
Federal water regulations. Not only do we need to ensure these costs 
are necessary because they are addressing legitimate public health and 
environmental threats but evidently we also need to convince some that 
Congress and the EPA have a role in this escalating cost crisis.
    I look forward to next week's Committee passage of the President's 
Clear Skies proposal. As my colleagues know, this is the largest 
reduction in utility emissions ever called for by an American 
President. The success of the Acid Rain program is the reason the 
President, Senator Voinovich and myself believe that Clear Skies is the 
best approach to reducing utility emissions. It will do so faster, 
cheaper and more efficiently than the Clean Air Act. Our goal is to 
expand the Acid Rain program to achieve greater emissions reductions 
without the endless lawsuits that have resulted under the Clean Air 
Act. I look forward to working with the Administration to get this bill 
signed into law.
    This is going to be a difficult budget year. Budgets are tight and 
the Nation is at war. The Administration is proposing a 5 percent cut 
to the EPA's budget. I would encourage my colleagues who are tempted to 
criticize this alleged cut to look very closely at what has been 
proposed. Aside from cuts to programs the Agency knows Congress will 
put back, very few programs are given significant decreases.
    Administrator Johnson, I look forward to your testimony. I again 
urge my colleagues to keep their statements brief.

    Senator Inhofe. Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman.
    Acting Administrator Johnson, it is a pleasure to welcome 
you here today. I look forward to working with you and whoever 
is named your successor, in these challenging budgetary moments 
and times. I am very concerned about this Nation's fiscal 
constraints, but a budget that is about priorities and 
environmental protection must be a priority.
    Let me say right off the bat that the Administration's 
proposed cuts to programs that protect our Nation's environment 
go too far. If enacted, the EPA's budget would decline 5.6 
percent compared with last year's enacted levels, and in real 
terms another 2.3 percent if inflation is taken into account. 
In the past 4 years, these serve as a guide. It would appear 
that there is no end in sight for cuts in EPA's programs. Last 
year, the program that funds clean water infrastructure in the 
States was cut 19 percent. This year, the proposed cut is 
another 33 percent, or $361 million.
    The nationwide need for infrastructure dollars continues to 
far outplace the amount of funding that is available from all 
levels of government. In 2002, an EPA study assessed the 
spending for wastewater infrastructure and total funding needs 
nationwide to be $390 billion over 20 years. EPA has also 
estimated that the funding needs for operation and maintenance, 
which are not currently eligible for Federal aid, are an 
additional $148 billion.
    This dramatic reduction to the Clean Water Revolving Fund 
will unfairly shift the financial burden to the States, 
municipalities, and the public. For examples, States located in 
the northeast will see an approximate reduction of $106 million 
compared to last year. In Vermont alone, we will see a 
reduction of close to $2 million. In this and other programs, 
the spending austerity so evident in the President's budget is 
accomplished by passing down costs to other levels of 
government. States and localities will be faced with a stark 
choice of either curtailing services or increasing their own 
taxes to compensate for the declining Federal funds.
    On the air front, I am interested in a full accounting of 
how the Agency's proposed mercury pollution standards become so 
compromised that a recent report by the Agency's own inspector 
general alleges that the health effects of mercury on children 
were overlooked.
    On related fronts, I hope we will learn why the 
Administration is moving so slowly on new source review 
enforcement actions, and on implementing a new rule for fine 
particulates. I am extremely concerned about a drastic cut in 
the budget of the program that phases out ozone depleting 
substances, and about the levels of funding for air pollution 
monitoring programs. We cannot afford to compromise on air 
quality.
    I know many members here are interested in the growing 
backlog of the Superfund cleanups. Last year, EPA candidly 
acknowledged that funding was insufficient to start work on 34 
priority projects in 19 States. The needed resources to protect 
human health and the environment. The President requested $126 
million less than last year for Superfund remediation.
    For the third year in a row, inadequate funds have 
prevented EPA from starting to clean up the Elizabeth Mine in 
Strafford, VT. Similarly, the Eli Copper Mine in Vershire, VT 
and the Pike Hill Copper Mine in Corinth, VT are waiting for 
funds for a full remedial investigation and feasibility study. 
How much longer are these communities going to have to wait to 
get the acid mine drainage from these sites cleaned up?
    Last but not least, I am tired of the kabuki dance the 
Administration and the Congress are playing with Lake 
Champlain.
    Senator Inhofe. What kind of dance?
    Senator Jeffords. Kabuki.
    Senator Inhofe. Kabuki.
    Senator Jeffords. Maybe kaduki. I am not sure.
    Senator Inhofe. Demonstrate it.
    Senator Jeffords. Yes, right. I will if necessary.
    [Laughter.]
    Senator Jeffords. The problems facing Lake Champlain are 
important and deserving of resources. Rest assured, I intend to 
find a way to adequately fund the EPA's Lake Champlain program.
    Again, thank you for being here today, Acting Administrator 
Johnson. I look forward to your testimony.
    Senator Inhofe. Thank you, Senator Jeffords.
     [The prepared statement of Senator Jeffords follows:]
        Statement of Hon. James M. Jeffords, U.S. Senator from 
                          the State of Vermont
    Acting Administrator Johnson, it is a pleasure to welcome you here 
today. I look forward to working with you and whoever is named your 
successor in these challenging budgetary times.
    Let me say right off the bat, that the administration's proposed 
cuts to programs that protect our nation's environment go to far. If 
enacted, the EPA's budget would decline 5.6 percent compared with last 
year's enacted levels, and in real terms, another 2.3 percent if 
inflation is taken into account.
    If the past 4 years serve as a guide, it would appear that there is 
no end in sight for cuts to EPA's programs. Last year the program that 
funds clean water infrastructure in the States was cut 19 percent. This 
year the proposed cut is another 33 percent or $361 million.
    The nationwide need for infrastructure dollars continues to far 
outpace the amount of funding that is available from all levels of 
government. In 2002, an EPA study assessed the spending for wastewater 
infrastructure and total funding needs nationwide to be $390 billion 
over 20 years. EPA also estimated that the funding needs for operation 
and maintenance, which are not currently eligible for Federal aid, are 
an additional $148 billion.
    This dramatic reduction to the clean water revolving fund will 
unfairly shift the financial burden to the States, municipalities, and 
the public. For example, States located in the Northeast will see an 
approximate reduction of $106 million compared to last year, and 
Vermont alone will see a reduction of close to $2 million.
    In this and other programs, the spending austerity so evident in 
the President's budget is accomplished by passing down costs to other 
levels of government. States and localities will now be faced with the 
stark choice of either curtailing services or increasing their own 
taxes to compensate for declining Federal funds.
    On the air front, I am interested in a full accounting of how the 
Agency's proposed mercury pollution standards became so compromised 
that a recent report by the Agency's own Inspector General alleges that 
the health effects of mercury on children were overlooked.
    On related fronts, I hope we will learn why the Administration is 
moving so slowly on New Source Review Enforcement Actions and on 
implementing a new rule for fine particulates. I am extremely concerned 
about a drastic cut in the budget of the program that phases out ozone-
depleting substances, and about the levels of funding for air pollution 
monitoring programs. We cannot afford to compromise on air quality.
    I know many members here are interested in the growing backlog of 
Superfund cleanups. Last year, EPA candidly acknowledged that funding 
was insufficient to start work on 34 priority projects in 19 States. 
Rather than request more money to provide EPA the needed resources to 
protect human health and the environment, the President requested $126 
million less than last year for Superfund remediation.
    For the third year in a row, inadequate funds have prevented EPA 
from starting to clean up the Elizabeth Mine in Strafford, VT. 
Similarly, the Ely Copper Mine in Vershire, Vermont, and the Pike Hill 
Copper Mine in Corinth, VT, are waiting for funds for a full remedial 
investigation and feasibility study. How much longer are these 
communities going to have to wait to get the acid mine drainage from 
these sites cleaned up?
    Last but not least, I am tired of the kabuki dance the 
Administration and the Congress are playing with Lake Champlain. The 
problems facing Lake Champlain are important and deserving of 
resources. Rest assured, I intend to find a way to adequately fund the 
EPA's Lake Champlain program.
    Again thank you for being here today Acting Administrator Johnson. 
I look forward to your testimony.

    Senator Inhofe. Senator Carper.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thank you very much, Mr. Chairman. Thanks 
for having a hearing, and our thanks to our witnesses for being 
with us today.
    We are working on class action reform legislation on the 
floor, which is something that is of strong interest to me. I 
am going to be in and out fairly briefly, so I apologize for 
that. I hope you will understand.
    There are many parts of the EPA budget for 2006 that do 
concern me. I am glad we have the opportunity to consider some 
of the proposals before us and how they might affect our 
environment. I also look forward to hearing from our Acting 
Administrator. What is it like being an Acting Administrator of 
EPA? Is it everything it is talked up to be?
    Mr. Johnson. It is a wonderful opportunity.
    Senator Carper. A wonderful opportunity.
    [Laugher.]
    Senator Carper. For the record, that is good. I talked to 
Governor Leavitt from time to time, and I think he is pleased 
to have his new opportunity and to give you this opportunity to 
fill the breach for a while.
    I would like to take a moment or two to just address a 
couple of fronts. One of those deals with the mercury rule. 
There has been some discussion of the mercury rule of late, and 
the Clean Water State Revolving Fund. Again, we appreciate your 
being here to speak and to respond to some of our questions. I 
will probably ask to submit some questions in writing for the 
record.
    Last week, I believe the EPA inspector general issued a 
report. I am sure you heard about it. It is one that I, along 
with a number of members of this committee, requested. It is a 
fairly lengthy report, and I will just quote from one passage. 
It says, ``Evidence indicates that EPA's senior management 
instructed EPA staff to develop a maximum achievable control 
technology standard for mercury that would result in a national 
emission of 34 tons annually, instead of basing the standard on 
an unbiased determination.'' The report also said that the 
EPA's cap and trade proposal could be strengthened to better 
ensure that anticipated emissions reductions would be achieved. 
It went on to state that the proposal does not adequately 
address the potential for hot spots.
    The EPA's response to the draft report merely raised 
concerns about certain aspects of this report. Considering the 
fact that nearly every State in our country has issued, 
including my own, fish consumption advisories due at least in 
part to mercury-poisoned waters, I just believe the EPA needs 
to do more than say they simply disagree with the inspector 
general, and maybe you will have an opportunity today to say 
more than that.
    The inspector general recommended that EPA re-analyze much 
of their data and analysis, and strengthen the cap and trade 
proposal by more fully addressing the potential for hot spots, 
which, if you look at the legislation that Senator Jeffords, 
legislation that I have introduced for pollutant bills, we both 
speak to the need to do that.
    Moving ahead with the current mercury rule, in my view, 
would be foolish politically and scientifically, because the 
rule, I feel, has little credibility. Switching gears, if I 
could, in the President's fiscal year 2006 budget proposal, the 
Clean Water State Revolving Fund is dramatically cut. This 
important program helps fund wastewater infrastructure projects 
such as sewer rehabilitation and treatment plant expansion. The 
budget proposal suggests $730 million for this program in 
fiscal year 2006. That is a reduction of about one-third from 
the current level. The current level, in my view, was 
inadequate.
    This proposal will hurt cities, big cities. Our biggest 
city is Wilmington. It will hurt Wilmington. It will hurt 
little cities as well, little towns, as they try to meet their 
clean water infrastructure needs, that I believe nationwide are 
about $200 billion. I feel that the longer we put this off, the 
worse the problem gets.
    Overall, the cuts in the EPA budget and the budget in its 
entirety represent, in my view, misplaced priorities. No one 
has fought harder for fiscal responsibility than some of us who 
serve on this committee. I, for one, would be prepared to 
support an austere plan if I thought it was a serious attempt 
to really balance the budget. This budget cuts spending for 
small, actually successful programs like the Clean Water State 
Revolving Fund in the name of deficit reduction, while 
indulging in huge new expenditures to privatize Social Security 
and to further extend tax cuts. We just need to come up with a 
more realistic plan that better reflects American priorities. 
One of those is a cleaner environment.
    Mr. Chairman, thank you.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman, for this 
opportunity to be here with you and my colleagues, and to 
comment on the budget that has been submitted.
    Mr. Chairman, EPA's mission is to protect human health and 
the environment. I have always believed, and the people of 
California have always believed, it is critically important, 
perhaps one of the most important things that we do as a 
government. I think that EPA's proposed budget sends a very 
different message. That message is not one that I think is 
welcomed by the people of my State.
    We are looking here at a 6 percent overall cut. If we go 
back to 2004, it is actually a 10 percent cut from 2004. That 
is less funding than when President Bush came into office, less 
funding on the environment. Without going back and checking on 
this, which I will do, I really believe this would be the first 
time in history that would be the case.
    I do not see the commitment to the resources that are 
necessary to assure the quality of life and clean environment 
that the American people deserve. It is hard for me to see how 
in times of rising rates of childhood cancer and asthma and 
neurological and developmental disorders, decreasing funding to 
public health and the environment is justified.
    As a Ranking Member for the Superfund and Waste Management 
Committee, I am very concerned about the growing backlog of 
toxic sites. Internal EPA documents have projected that if 
funding for Superfund construction projects continues at the 
current levels, the unmet need will be between $750 million and 
$1 billion by next fiscal year. The resulting hardship suffered 
by communities waiting for cleanup dollars is real. Ten million 
children, Mr. Chairman, live within 4 miles of a Superfund 
site. Their health and welfare are at risk until they get those 
toxic sites in their neighborhoods cleaned up.
    EPA has admitted that there are unmet needs. In a January 
18 response to a letter I sent EPA, Tom Dunne, the Acting Head 
of the Superfund Program, confirmed that funding was 
insufficient to start work at 19 projects that were 100 percent 
ready to go. This is the first Administration that I am aware 
of that has opposed the polluter fee. What is happening is we 
see a very small increase in funding over last year, which is 
insufficient for the backlog, and we see that taxpayers are now 
picking up the whole freight here, which is wrong. I think 
polluter-pay is an American value. I certainly know that it is 
in my State.
    Why should Superfund be a priority? I think we have to look 
at the consequences of failing to fund these sites. The 
Washington Post this last Thanksgiving wrote about one example, 
a site in Omaha, NE, that is heavily contaminated with lead and 
on a very slow cleanup track. At the Omaha lead site, there are 
9,400 children under age 7 living in the affected area of the 
site and threatened with lead poisoning. Whole neighborhoods 
were contaminated, so the problem is in thousands of backyards 
due to a smelter that deposited lead throughout the area.
    One of the consequences of the slow pace of cleanup is that 
several thousand children have high lead levels at the site 
today. The Washington Post story talks about one child in 
particular, who lost his ability to talk after exposure to the 
site. Obviously, this is a tragedy, but we have the power to do 
something about it. We should make cleanup of these sites a 
priority, and fund the Superfund program, not fund it at an 
anemic level, but go out there for the sake of the children and 
get it done.
    Mike Leavitt visited the Omaha site in October while he was 
Administrator of EPA. He said at the time, ``The problem is our 
pocketbook. Our pocketbook does not stretch across all the 
places that our heart responds to.'' Well, if we can have an 
open checkbook for a foreign war, we ought to have at least a 
sufficient checkbook when it comes to our children. That is 
really why I chose to be on this committee, because it is the 
children who suffer, really. We adults do not have the same 
impacts from these toxins and these pollutants.
    So I would ask unanimous consent that the remainder of my 
statement be placed in the record. Mr. Chairman, it deals with 
the cut in the Clean Water State Revolving Fund, which is 83 
percent. It is a disaster for my people. The underfunding of 
the leaking underground storage tanks, which is directly 
responsible for the MTBE poisoning that is going on, and the 
pattern that I see here which makes me really question the 
commitment of this Administration to the public health and the 
environment.
    I certainly hope that we on this committee under the 
leadership of our Chairman, can work in a bipartisan way to 
perhaps reverse some of these, let us call it, misplaced 
priorities.
    I thank you very much, Mr. Chairman.
    [The prepared statement of Senator Boxer follows:]
         Statement of Senator Barbara Boxer, U.S. Senator from 
                        the State of California
    Thank you, Mr. Chairman. EPA's mission, to protect human health and 
the environment, is critically important. Unfortunately, EPA's proposed 
fiscal year 2006--budget along with the Bush administration's never-
ending attempts to roll back decades of environmental and public health 
protections--demonstrates yet again that this administration is not 
committed to protecting public health and the environment.
    The President's 2006 budget request would decrease EPA's funding 
$452 million, 6 percent, from fiscal year 2005 amounts. This is an $804 
million, or 10 percent, cut from fiscal year 2004 amounts. This is less 
funding than when Bush came into office.
    EPA's overall 2006 budget does not commit the resources necessary 
to assure the quality of life and clean environment that Americans 
expect and deserve. I do not see how, in times of rising rates of 
childhood cancer, asthma, and neurological and developmental disorders, 
decreasing funding to public health and environment programs can be 
justified.
    As ranking member for the Superfund and Waste Management 
Subcommittee, I am particularly concerned about the growing backlog of 
toxic sites waiting for cleanup in the Superfund program. Internal EPA 
documents have projected that if funding for Superfund construction 
projects continues at current levels--the unmet need will be between 
$750 million and $1 billion by next fiscal year, fiscal year 2007.
    The resulting hardship suffered by communities throughout the 
country waiting for cleanup dollars is real. Ten million children live 
within 4 miles of a Superfund site and their health and welfare are at 
risk until they get the toxic sites in their neighborhoods cleaned up.
    EPA has admitted that there are unmet needs. In a January 18th 
response to a letter I sent to EPA last October, Tom Dunne, the Acting 
head of the Superfund program, confirmed that funding was insufficient 
to start work at 19 projects that were 100 percent ready to go.
    Yet despite the growing backlog, the President has substantially 
scaled back the budget request for fiscal year 06--compared to his 
requests in fiscal year 05 and fiscal year 04. The President's request 
has actually dropped by over $100 million compared to last year's 
request. The need is growing and the request is shrinking--which tells 
us something about the President's priorities.
    Why should Superfund be a priority? I think the answer comes from a 
look at the consequences of failing to fund these sites. The Washington 
Post this past Thanksgiving wrote about one example, a site in Omaha 
that is heavily contaminated with lead and on a slow cleanup track.
    At the Omaha lead site there are 9,400 children under 7 living in 
the affected area of the site and threatened with lead poisoning. Whole 
neighborhoods were contaminated so the problem is in thousands of 
backyards due to a smelter that deposited lead throughout the area.
    One of the consequences of the slow pace of cleanup is that several 
thousand children have high lead levels at the site today. The 
Washington Post story talks about one child in particular who lost his 
ability to talk after exposure to the site. Obviously, this is a 
tragedy, but we have the power to do something about it. We should make 
cleanup of these sites a priority and fund the Superfund program.
    Mike Leavitt visited the Omaha site in October while he was 
Administrator of EPA and he said at the time ``the problem is our 
pocketbook does not stretch across all the places our heart responds 
to.''
    I do not believe that we have reached the point, despite our fiscal 
problems, where we have to allow this kind of threat to continue for 
years and years. We need to adequately fund Superfund--because the 
consequences of failing to fund this program are simply not consistent 
with our values.
    Superfund is not the only EPA program to be underfunded.
    Overall clean water programs are slashed a drastic $693 million, or 
42 percent at a time when EPA estimates that these programs will need 
$388 billion through 2019. This decrease includes a 33 percent cut for 
the Clean Water State Revolving Fund and an 83 percent cut in funding 
targeted to specific projects. This means that money going to local 
governments to clean up water is gone with no alternative source for 
funding in sight. This means no funding for critical projects, such as 
wastewater and stormwater infrastructure improvements; watershed 
management plans; and combined sewer systems.
    Requested funding for Leaking Underground Storage Tanks, which can 
hold extremely toxic chemicals that can contaminate the ground, 
aquifers, streams and other water bodies, is at $73 million. Although 
this is $3 million above fiscal year 2005 funding levels, it is $3 
million below 2004 levels, and it is insufficient to address the 
backlog of 130,000 sites awaiting cleanup. MTBE, which has wrecked 
havoc with water supplies across the country, has come from leaking 
underground storage tanks. There are approximately 675,000 tanks across 
the United States, and more than 445,000 confirmed releases from these 
tanks as of September 2004, nearly 43,000 of them in California.
    I see a pattern here--of decreasing funding to critical water 
quality and infrastructure programs, as well as decreasing funding to 
programs that can help prevent the contamination in the first place. 
This calls into question this administration's commitment to clean and 
healthy water for all Americans.
    A budget that decreases funding for public health and the 
environment, stops funding local water quality projects, drastically 
slows Superfund clean-ups, and transfers the burden of cleanups to 
taxpayers forces me to continue to question this administration's 
commitment to public health and the environment.

    Senator Inhofe. Thank you, Senator Boxer.
    Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, and thanks to Mr. 
Johnson for your visit and testimony today. Certainly, the work 
of the EPA is vitally important to Louisiana, as it is to all 
other States. It is one of the prime reasons I worked very hard 
to get on this committee. I am very excited to be here.
    That certainly includes all of the macro issues, some of 
which previous speakers have focused on. I would also include 
some very specific Louisiana issues that I would like to follow 
up on after today. I will mention just a few for your 
information, to help you focus on it.
    Actually, the first bill I passed as a member of the House, 
which I am very excited about continuing, is Lake Pontchartrain 
Basin Restoration Program. Lake Pontchartrain is the largest 
lake in Louisiana. It is the second-largest body of water in 
the United States after the Great Lakes. It was a major 
pollution problem in Louisiana for very many years. Through a 
lot of work, really at the grassroots level, we began to turn 
the corner on that, through real grassroots community 
involvement initiatives.
    When I came to the House in 1999, I helped us take the next 
step by sponsoring this legislation, which became law. It set 
up a specific program within EPA to really get us to the next 
level through voluntary, proactive cleanup programs that bring 
all of the stakeholders together, again in a voluntary 
consensual proactive way, to rally around cleanup programs that 
help cleanup the lake and the entire Lake Pontchartrain Basin, 
which is 16 parishes in Louisiana, plus 3 counties in 
Mississippi.
    I am excited about it, first of all, because it obviously 
affects a big part of Louisiana, but also it is I think a new, 
positive model for addressing these sorts of concerns around 
the country, rather than simply dropping tons and mountains of 
regulation on communities that are an enormous burden, not just 
for the private sector, but increasingly for the public sector. 
It brings all the stakeholders together and forms consensus 
around proactive, voluntary cleanup initiatives. So I commend 
that to your attention as we reauthorize that and follow up on 
that.
    Another key Louisiana concern I have is Baton Rouge ozone 
nonattainment. This certainly goes to the Clear Skies 
initiative as well. Baton Rouge is a severe ozone nonattainment 
area even as we move from a 1-hour standard to a more stringent 
8-hour standard, actually for reasons I am not sure I fully 
understand, that moves Baton Rouge from marginal nonattainment 
to severe nonattainment. So that is one of the quirks in 
present law and present regulations that we all want to help 
work through. Right now, there is a court-imposed stay in that 
case, and we all want to work toward a permanent solution that 
makes sense for citizens in Baton Rouge and for our policy 
nationwide.
    There are other issues, too. Just recently, I read reports 
that the town of El Dorado, AK has asked EPA to allow a project 
that would actually allow the dumping of millions of gallons of 
wastewater into the Washtar River in Louisiana that clearly has 
a major Louisiana impact. So if that project is approved, it 
would mean that every day, 20 million gallons would be dumped 
into a river that flows through central Louisiana into the 
Atchafalaya Basin.
    So I look forward to working with the Agency on all of the 
macro issues, as well as specific Louisiana concerns like these 
three I mentioned. Mr. Chairman, I will submit the rest of my 
statement, along with some specific questions about those 3 
areas of concern, for the record.
    [The prepared statement of Senator Vitter follows:]
  Statement of David Vitter, U.S. Senator from the State of Louisiana
    Mr. Chairman, thank you for having this hearing, and, Mr. Johnson, 
we appreciate your being here today. The work of the EPA is very 
important in Louisiana, and I look forward to continuing to build on 
that work.
    One of the best examples of the EPA's work in Louisiana is the Lake 
Pontchartrain Basin Restoration Program. The Lake Pontchartrain Basin 
is a 5,000 square mile watershed encompassing 16 parishes in Louisiana 
and 4 counties in Mississippi. Lake Pontchartrain is the second largest 
lake in the United States after the Great Lakes and its 1.5 million 
residents make it the most populated area in the state of Louisiana.
    In 2000, Congress passed the Lake Pontchartrain Basin Restoration 
Act, which was my first bill to pass Congress. This program puts Lake 
Pontchartrain's restoration on the same status as other the restoration 
of other environmentally sensitive areas in our Nation, such as the 
Great Lakes and Florida Everglades restoration efforts. In addition, 
this program also created a partnership between the Federal Government 
and local stakeholders to further efforts to clean up the lake. The EPA 
is an active member of the Lake Pontchartrain Stakeholders' Conference 
and is the chief Federal agency involved in the program.
    A great deal has been accomplished since the program began. There 
has been significant improvement in the water clarity in Lake 
Pontchartrain. We have seen the return of manatees, pelicans, oysters, 
clams and blue crabs to the lake. ``NO SWIMMING'' signs are coming down 
and beaches are being reopened. There has been an improvement in water 
quality on the south shore, however the same cannot yet be said of the 
north shore and the upper basin. Growing suburbs and inconsistent urban 
planning has dramatically increased pollution as well as affected some 
sensitive habitats.
    The Lake Pontchartrain Basin Restoration Program has made great 
progress in cleaning up Lake Pontchartrain. We have come so far, but 
there is still much to be done. Various water-quality studies within 
the Lake Pontchartrain Basin have been conducted in recent years. While 
these studies have helped provide solutions to clean the Lake, we must 
move to the next phase: construction.
    I intend to introduce legislation soon that will not only 
reauthorize this important program but also allow funding to be used 
for construction much needed watershed projects. I am working with 
Senator Lott, because Mississippi is an important part of the Lake 
Pontchartrain Basin, and my colleague from Louisiana, Senator Landrieu, 
to draft this legislation. I look forward to working with the Chairman 
and the rest of the committee to reauthorize this important program.
    I wanted to bring up another issue important to Louisiana: ozone 
non-attainment in Baton Rouge. As we move from a 1-hour ozone standard 
to a more stringent 8-hour standard, Baton Rouge's classification could 
move from severe to marginal. Yet, under current law, even as that 
improvement happens, Baton Rouge will still be held to the existing 
severe restrictions under the old 1-hour standard.
    This situation seems inconsistent with the goal of cleaner air and 
nonsensical. Also, it creates litigation, which is ongoing and 
continuing to add costs and more delays in work to actually cleaning 
the air. I think this example proves that there is need for increased 
flexibility and for more efficiency and cost-effectiveness in cleaning 
up our air and meeting more stringent standards.
    Also, I have read recent reports that the town of El Dorado, AK, 
has asked the Environmental Protection Agency to allow a project that 
will dump millions of gallons of wastewater into the Ouachita River in 
Louisiana.
    If this proposed project is approved as proposed, it would mean 
that, everyday, 20 million gallons would be dumped into a river that 
flows through central Louisiana and into the Atchafalaya Basin. To have 
that much waste flowing into this river--a river that is vital to 
Louisiana's environment, economy, and culture--is unacceptable to us in 
Louisiana.

    Senator Inhofe. Thank you, Senator Vitter.
    Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you, Mr. Chairman.
    I want to begin by saying that there are a few bright spots 
in this budget. I am pleased, for example, that funding for 
building decontamination research has been restored. That had 
been zeroed out last year. The request for the Clean School Bus 
USA Program is up from the fiscal year 2005 enacted levels. I 
think that is a very good sign, because this program does help 
school districts retrofit old buses or purchase new ones, in 
order to reduce children's exposure to harmful particulates.
    From a macro perspective, I have to say this budget is 
disappointing and inadequate. Like my colleagues, I am dismayed 
about the very deep cuts for the Clean Water State Revolving 
Fund by $360 million from the fiscal year 2005 enacted levels, 
to $730 million. If Congress passes this amount, it would be a 
cut of more than $600 million from the average historical 
funding level of $1.37 billion per year for the program.
    For New York alone, this reduction would mean a cut of $40 
million. We know that the water infrastructure gap for the next 
20 years is in the hundreds of billions. In New York, we have 
an aging infrastructure. From the 1990 to 2000 census, we had 
an increase in population in New York City. This is an 
incredibly short-sighted cut. On the other end of our State, we 
have problems with the decision to zero out funding for the 
Rural Water Programs, which are critical to hundreds and 
hundreds of small rural systems in New York, and certainly 
thousands across the country, to help these small communities 
comply with the law and protect their drinking water. We have 
to find a way to provide that assistance as well.
    I join my colleagues' concerns about some of the policy 
decisions embedded in this budget document, because after all 
budgets are value statements, as well as including numbers and 
statistics. I join my colleague, Senator Boxer, with concerns 
about the Superfund. I join my colleague, Senator Carper, with 
concerns about mercury. It really, I have to say, is shocking 
that the EPA inspector general's report that was requested by 
Senator Jeffords, I and others, concerning the mercury 
proposal, found that EPA management ignored the Clean Air Act's 
requirements. We do not have any other law at this time. There 
are lots of proposals floating around, but the law is the law, 
and that is the Clean Air Act.
    The direction by the EPA management to the staff to 
essentially game the mercury analysis so that the reductions 
would mesh with the expected co-benefits of the clean air 
interstate rule is absolutely outrageous. It is a slap in the 
face to Congress. It is a slap in the face to the American 
public. It is a real detriment to the 1 in 12 American women 
who already have dangerous levels of mercury in their 
bloodstream.
    It is very troubling, because we need unbiased analysis. We 
can have arguments about what the best thing to do is. 
Obviously, the Chairman and I do not agree about what we should 
do to clean our air. We cannot permit government agencies to 
provide false and misleading information. If there were any 
oversight in this Congress, which there is very little of, we 
would get answers to this. It is wrong and it is unacceptable.
    Let me just mention two other issues very quickly. I worked 
with the White House in the fall of 2003 to secure an agreement 
to establish the World Trade Center Expert Technical Review 
Panel to address continuing concerns about contamination 
resulting from the collapse of the World Trade Center on 
September 11. I then worked very successfully with Governor 
Leavitt to implement that agreement. The panel got underway 
last March under the chairmanship of Dr. Paul Gilman of the 
Office of Research and Development. Dr. Gilman did an excellent 
job, but he has left the Agency and the panel has been without 
a chairman. I hope, Mr. Johnson, that you will name a new chair 
of this panel expeditiously, because this is a success story. 
This is one of those issues where everybody has worked 
together.
    Finally, with respect to the Deutsche Bank demolition, I 
want to thank the EPA for stepping in and making clear that 
there were aspects of this demolition that were totally 
unacceptable. I would hope that the EPA has followed up with 
the Lower Manhattan Development Corporation to ensure that the 
suggested changes are made, and that you will continue to work 
to ensure that any demolition going on in Lower Manhattan is 
done to the highest standards.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Clinton.
    Senator Obama.

 OPENING STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman.
    First of all, I want to indicate my concurrence with the 
statements of Senator Clinton and some of the previous 
speakers. I think there are good elements of this budget, but I 
am disappointed that we seem to be going backwards instead of 
forwards in terms of at least our financial commitment to 
protecting the environment.
    I think if there are arguments to be made that some 
programs are inefficient, as I have already heard from the 
brief time that I have been on this committee, I am happy to 
consider how we can make them more efficient. I am not wedded 
to one particular way of skinning the cat. I am not interested 
in wasting taxpayer money on programs that do not work.
    It strikes me, though, given the magnitude of some of the 
things that were mentioned by Senator Boxer and Senator 
Clinton, the notion that we are cutting back on our resources 
to not only enforce, but also cleanup some of these sites, is 
troubling to say the least.
    I do want to say that I am pleased to see an additional 
almost $50 million going into Brownfields programs. I think 
that is something that will benefit communities all across the 
country. I will be interested in seeing how this program is 
managed and how it affects areas in the Midwest in particular 
that I think have been neglected.
    I am also happy that the Great Lakes is going to be 
receiving some additional money to clean up sediment there. I 
am going to be interested in finding out from the EPA how 
Illinois is participating in that, how EPA is making decisions 
about those sites that receive the highest priority. I will 
take just one example. Waukegan Harbor is an area which used to 
have a Johns Mansville plant there. There have been consistent 
reports of asbestos washing up on the beach, big chunks of it. 
Right now, Illinois EPA has had the beach closed down, but 
there does not seem to be a clear strategy in terms of how we 
are going to clean it up. So I am going to be interested in 
finding out how this Agency intends to work with the EPA, work 
with the State government to make sure that facility is cleaned 
up.
    With respect to clean water wastewater treatment, I will be 
interested in an explanation as to why we are cutting this 
money back. Is this just a matter of every agency having to 
meet its quota of cuts relative to the overall Federal budget? 
Or is there some legitimate rationale for these cuts? I have 
not heard those rationales as well. I will be interested in 
seeing if there is any good reason for it.
    Let me just end by saying this. I really want to emphasize 
the point that Senator Clinton just made about getting good 
information. We cannot do our job on either side unless we have 
good information. It seems as if there may be a trend or a 
tendency for us to manipulate numbers in order to make 
political points. It seems to me that there is no room to do 
that, especially when we are talking about environmental issues 
in which our children's lives are at stake. So I hope you have 
some direct response in terms of how we are approaching that, 
and whether there is something in this budget that reflects 
some institutional mechanism to prevent that kind of stuff from 
occurring again.
    Senator Inhofe. Thank you, Senator Obama.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    I apologize for being late. I apologize sincerely for 
missing the testimony. I will defer my questions until later, 
if that is possible, so I can get caught up.
    Senator Inhofe. Senator Thune.

  OPENING STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE 
                     STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    I, too, would wait until the question-answer time.
    Senator Inhofe. That is fine. What I think we will do, we 
will close our opening statements now for any other members 
that come, in accordance with our rules. Since we are only 
going to have one round, Senator Jeffords, without objection 
why don't we give 6-minute rounds instead of 5-minute rounds.
    Senator Jeffords. Fine.
    Senator Inhofe. That would be all right? All right. We will 
do that, and we will go back to the early bird rule.
     Senator Boxer. Excuse me, Mr. Chairman. Could I just ask 
you a question?
    Senator Inhofe. First of all, we have to get the testimony.
    Senator Boxer. I know, but you were talking about one 6-
minute round, and that is the end of the questions?
    Senator Inhofe. That is what I am talking about, yes.
    Senator Boxer. Could I suggest 10-minute rounds, because I 
think it is kind of hard, if you are going to have a give-and-
take, to do it in 6 minutes.
    Senator Inhofe. All right. We will have 7.5-minute rounds. 
We will split the difference.
    [Laughter.]
    Senator Boxer. Mr. Chairman, you are so generous.
    Senator Inhofe. Thank you very much.
    Senator Boxer. Your cup runneth over. Thank you.
    [Laughter.]
    Senator Inhofe. We work well together. Thank you.
    Mr. Johnson, you have heard a lot of the comments. You will 
have a lot of questions to answer, I am sure. We will recognize 
you at this time to make your statement. Try to stay within 
your 5 minutes, say 6 minutes. OK?

  STATEMENT OF STEPHEN L. JOHNSON, ACTING ADMINISTRATOR, U.S. 
  ENVIRONMENTAL PROTECTION AGENCY; ACCOMPANIED BY: CHARLES E. 
JOHNSON, CHIEF FINANCIAL OFFICER, U.S. ENVIRONMENTAL PROTECTION 
 AGENCY; BENJAMIN GRUMBLES, ASSISTANT ADMINISTRATOR, OFFICE OF 
WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; TOM DUNNE, DEPUTY 
 ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE AND EMERGENCY 
   RESPONSE, U.S. ENVIRONMENTAL PROTECTION AGENCY; ANN KLEE, 
  GENERAL COUNSEL, U.S. ENVIRONMENTAL PROTECTION AGENCY; JEFF 
     HOLMSTEAD, ASSISTANT ADMINISTRATOR, OFFICE OF AIR AND 
   RADIATION, U.S. ENVIRONMENTAL PROTECTION AGENCY; SUSAN B. 
 HAZEN, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF PREVENTION, 
PESTICIDES, AND TOXIC SUBSTANCES, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Johnson. Thank you, Mr. Chairman and members of the 
committee. I am pleased to be here this afternoon to discuss 
President Bush's fiscal year 2006 budget request for the 
Environmental Protection Agency. I am accompanied by Mr. 
Charlie Johnson, the Agency's Chief Financial Officer, and the 
rest of EPA's leadership team. We would be pleased to respond 
to your questions after my brief remarks.
    Mr. Chairman, if it would please the committee, I would 
request that my full written statement be included for the 
record.
    Senator Inhofe. Without objection.
    Mr. Johnson. Mr. Chairman, as you know, the President has 
requested a budget of $7.6 billion for EPA and its partners for 
fiscal year 2006. We are all well aware of the need for 
discipline in our Federal budget, and this budget request 
reflects the need to be a good steward of the taxpayers' 
dollars. At the same time, I am certain that the President's 
budget will allow us to continue the progress we have made in 
protecting public health and the environment.
    This budget engages the full range of partners, not just 
Federal, State, tribal and local partners, but also businesses, 
interest groups and educational institutions, to help leverage 
Federal moneys. Let me give you an example. The President's 
budget contains a request for $15 million for the Clean Diesel 
Initiative. These funds will be used to expand the retrofitting 
of diesel engines in new sectors of the economy, such as 
construction, agriculture, mass transit and the Nation's ports, 
and in fire and emergency response. These funds are expected to 
leverage significant additional investments from businesses and 
other sources to replace older, dirtier equipment, thereby 
accelerating our efforts to make that black puff of diesel 
smoke a thing of the past.
    The national Clean Diesel Initiative is expected to reduce 
particulate matter by 1,200 tons, achieving an estimated $360 
million in health benefits by reducing premature deaths, heart 
attacks, chronic bronchitis, and asthma episodes. In fact, 
through numerous other collaborative networks and partnerships, 
EPA will be able to leverage millions of additional dollars to 
improve the Nation's environment.
    Mr. Chairman, I would like to highlight just a few programs 
that illustrate the strong commitment the President is making 
to a clean and healthier America. First, President Bush is 
requesting $210 million for the National Brownfields Program, 
an increase of $46.9 million over the enacted 2005 funding. EPA 
is working with its State, tribal and local partners to meet 
its objective to clean up, restore, and revitalize contaminated 
properties and abandoned sites. These funds, together with the 
extension of the Brownfields tax incentive, will allow EPA to 
assess over 1,000 Brownfield properties, and cleanup 60 
properties using Brownfields funding. Federal dollars will also 
leverage 5,000 cleanup and redevelopment jobs, as well as $1 
billion in cleanup and redevelopment.
    With respect to the Great Lakes, we are proud of our 
efforts in the Great Lakes region over the past year, including 
implementation of the President's Executive order calling for a 
regional collaboration of national significance. As you know, 
we helped initiate the collaboration with the conveners meeting 
in Chicago last December, and our work is continuing to develop 
a plan for protecting and preserving the Great Lakes.
    The President's fiscal year 2006 budget increases funding 
for Great Lakes programs and the regional collaboration to $72 
million. That amount includes $50 million for the Great Lakes 
Legacy Act Program to remediate the contaminated sediment in 
areas of concern, such as the Black Lagoon close to Detroit, 
MI.
    To help support sustainable wastewater infrastructure, the 
President's budget provides $730 million to continue 
capitalization of the Clean Water State Revolving Funds. This 
investment will allow EPA to meet the Administration's Federal 
capitalization target of $6.8 billion for 2004 through 2011, 
and it will enable the Clean Water State Revolving Fund to 
revolve over time at a level of $3.4 billion per year.
    To further address wastewater needs, EPA is supporting a 
range of voluntary efforts to achieve sustainable 
infrastructure, such as management improvements, full cost 
pricing, water conservation, and restoration through our 
watershed approach. To help ensure that water is safe to drink, 
the fiscal year 2006 President's budget requests $850 million 
for the Drinking Water State Revolving Fund.
    The President's budget request also reflects a strong 
commitment to safeguard human health and the environment, with 
funds to ensure that EPA's critical role in homeland security 
remains a top priority. EPA's request includes $79 million in 
new resources for homeland security efforts. Among priority 
activities, $44 million will provide tools and training for our 
largest drinking water systems, and will launch in selected 
cities a pilot program of monitoring and surveillance to 
provide early warning of contamination.
    Environmental decontamination research and preparedness 
increases by $19.4 million, with an additional $4 million 
requested for the Safe Buildings Research Program. Over $11.6 
million in new resources will support preparedness for our 
environmental laboratories.
    In summary, this budget will enable us to carry out the 
goals and objectives as set forth in our strategic plan, to 
meet new challenges, to move forward EPA's core programs as 
reflected in the Nation's environmental statutes, to protect 
our homeland, and to identify new and better ways to carry out 
EPA's mission, while maintaining national competitiveness.
    Before concluding, Mr. Chairman, I would like to just take 
a moment to thank you and Senator Voinovich for your work on 
the Clear Skies legislation, which is currently pending in the 
committee, and to pledge to you and other members of the 
committee the Administration's best efforts to help you move 
the legislation forward. The President continues to believe 
that Clear Skies legislation is vital and we know that States 
and localities are anxious to have Federal and regional tools 
to meet the standards we have established under the Clean Air 
Act.
    Of course, EPA will continue to meet its obligations under 
existing authorities and agreements, but I want to be certain 
that we are providing the committee with all the assistance 
necessary to facilitate consideration of this important issue.
    Mr. Chairman, thank you again for this opportunity to 
discuss EPA's budget proposal for fiscal year 2006. At this 
time, I would be pleased to answer any questions you may have.
    Senator Inhofe. Thank you, Mr. Johnson. I will go ahead and 
start the 7.5-minute rounds.
    Let me first of all thank you for responding yesterday to 
my call. I think Senator Jeffords and I had asked for quite 
some time for the enacted levels of 2005 so that we could look 
at that with the 2006 budget. It should not have taken as long 
as it did, but we do have it now, and we do appreciate finally 
getting it.
    Let me get to just one opening question, because every year 
we go through this same thing. I know the intentions are good, 
but in terms of polluter-pays, I would suggest to you that the 
polluter does pay. We have a system, if we can identify who a 
polluter is, that polluter pays. I do not know of any exception 
to that, and I have asked this question before, so maybe 
something has happened in the last year that has changed this, 
but I will ask you the question. Can you identify any Superfund 
site in the past, in the present, or in the pipeline now, when 
an identifiable and viable polluter has not been held liable, 
consistent with the law, for their share of the contamination? 
Can you just identify one?
    Mr. Johnson. I am not aware of any one at all, Mr. 
Chairman. In fact, our policy and our practice is that the 
polluter pays. That is who we go after. If we can identify a 
liable party, we go after them. In fact, over 70 percent of the 
sites are undertaken by the polluter, not by the Federal 
Government, but by the polluter. That is the person we go 
after.
    Senator Inhofe. I just wanted to get that in the record and 
clarify that nothing has changed, and that has always happened.
    Now, you are going to be grilled by a lot of my colleagues, 
including myself on some shortfalls in the budget. I would like 
to talked about reducing the overall budget by $450 million, I 
would argue a different point here, because it seems like every 
year, and it happened in the previous administration, the 
Clinton administration. It has happened every time I have been 
up here, that there are cuts in programs that you know in your 
heart are going to be put back in. One is the congressional 
projects; the other is the State revolving fund. They cut them 
every year, and they put them back, so you know they are going 
to be put back.
    I would prefer that the Agency go and start making cuts in 
areas where I think there could be general agreement. We have 
reams of studies that really have not produced anything at all. 
One is the Accidental Injury and Inclement Weather: Defining 
the Relationship and Anticipating the Effects of Climate 
Change, and an epidemiological study, the Effects of 
Temperature on Violent Crime. These are things that I think 
most normal people would say you do not need to be wasting your 
money on.
    So why don't you go out, and I think maybe you need to have 
the cuts in overall programs, but cut in areas that are serious 
cuts that you know are not going to be reinstated.
    Any thoughts about that?
    Mr. Johnson. Mr. Chairman, I certainly agree. The EPA is 
always looking for opportunities to streamline and to take 
appropriate cuts. In fact, we have identified programs that are 
both not meeting their intent and not producing results. There 
is at least one example where one of the programs, the Alaska 
Native Villages, where there are needs, but through our own 
assessment, through the performance assessment rating tool that 
the government is using to evaluate programs, and through the 
State's own investigation, it was determined that it was an 
ineffective program, both financially and programmatic. So the 
budget reflects those kind of cuts.
    Second is that certainly with your encouragement, Mr. 
Chairman, we have made great progress on our grant programs.
    Senator Inhofe. Yes, you have.
    Mr. Johnson. But we have work to do. A part of that work is 
to take a very close look at all grant funds, particularly the 
discretionary grant funds, to make sure that those moneys are 
used for the highest priority activities for the Agency. I 
think that as we look at those kind of things, we will see 
additional savings.
    Senator Inhofe. Along that line, I would encourage you, and 
I would like to have your response like now, your willingness 
to do it, to continue, as I think you just said, that program. 
We had so many discretionary grants that we discovered that 
actually were going straight into 501(c)(4) operations, totally 
outrageous, as I mentioned in my opening statement.
    So there are a lot of areas where we can do it, but I do 
see this, and again this is not the Republicans or the 
Democrats. It is everybody. They will cut things that they know 
are going to come back in. That is not confined to this 
committee, I might add.
    There is something that is important to my State I want to 
just share with you. The Agency recently proposed a second 
extension in the compliance deadline for the small oil and 
natural gas producers to comply with the stormwater rule. What 
does the Agency plan to do during the new extension period? 
Further, the Department of Energy recently released a report 
detailing the underlying costs to the oil and natural gas 
sector and the Nation as a whole if the EPA goes forward with 
its rule to require them to have clean water permits for all 
their stormwater runoff, instead of just contaminated runoff as 
Congress intended when it passed the 1987 amendments to the 
Clean Water Act. What is your intention on that?
    Mr. Johnson. Mr. Chairman, on January 18 of this year, we 
proposed to postpone the requirements for NPDES permits for 
stormwater phase II oil and gas construction activities until 
June 12, 2006. This will provide us with an opportunity to 
better study the economic, the legal, and procedural issues 
associated with oil and gas construction activities and NPDES 
permits.
    We have stated that we do intend to propose a rule by the 
end of September of this year that would lay out what approach 
we believe we should be taking for these types of activities 
and these types of facilities. We believe that it is 
appropriate for us to postpone the requirements while we sort 
this out.
    Senator Inhofe. All right, Mr. Johnson. Thank you.
    Senator Jeffords.
    Senator Jeffords. Yes, I would like to turn your attention 
to an issue that has raised deep concerns over this country, 
but most particularly right where we are here in Washington, 
DC. We are well aware of the damaging impact that mercury can 
have on human health and environment. According to the EPA 
inspector general's recent report, during the writing of the 
mercury reduction rule, EPA senior management purposely ignored 
the law to benefit the industry.
    Let me quote you last week's inspector general's report, 
``EPA senior management instructed EPA staff to develop a 
maximum achievable control technology, a MACT, standard for 
mercury that would result in national emissions of 34 tons 
annually instead of basing the standard on an unbiased 
determination of what the top-performing units were achieving 
in practice as required by the law in section 112.''
    Do you find this behavior acceptable, and what is the 
Agency doing to correct this problem and prevent such abuse of 
the law in the future?
    Mr. Johnson. Mr. Jeffords, first of all let me state that, 
as you well know, having confirmed me as the Assistant 
Administrator for the Pesticides and Toxics Program, I was not 
in the position that I am either as the permanent deputy or as 
the acting. So I, too, had the inspector general's report, and 
several comments.
    One is that there is no disagreement that mercury is a 
toxic material that must be dealt with. Also, there appears to 
be no science disagreement that the exposure that we all need 
to be concerned about for mercury is through the diet, and 
specifically through fish.
    So while there may be aspects of the IG report of process, 
where there are differences of opinion and that the Agency does 
disagree with the way the IG has characterized the process, the 
point is that we are going to be regulating mercury from coal-
fired power plants for the first time in U.S. history. 
Currently, mercury is not regulated, so we are taking steps to 
make that happen.
    Of course, the IG report was issued while we were in the 
midst of the process of final rulemaking. So for the IG report 
to say what we will or will not do is certainly premature 
because we are in the midst of regulating mercury for the first 
time in U.S. history. So I am sure that there are always 
process improvements. I have been dealing with regulations of 
EPA for almost 25 years now, and I always look for those 
opportunities to improve our process. It is clear that we need 
to move forward with regulating mercury from power plants, and 
that is what our focus is and what our final rulemaking is a 
part of.
    Senator Jeffords. Do you have any time schedule for trying 
to get that implemented?
    Mr. Johnson. Our plan is to by mid-March move forward with 
our regulation. Of course, our preferred approach, as I 
commented in my opening remarks, is to see the passage of Clear 
Skies legislation. We believe that is a much more preferable 
approach for a number of reasons, not the least of which is 
certainty and the fact that it applies nationwide. So that is 
why we are certainly doing anything that we can to help 
Chairman Inhofe and the committee see Clear Skies passed.
    Senator Jeffords. Can you explain how a cut of $361 million 
in clean water infrastructure funds will lead to an improvement 
in water infrastructure? How will it reduce the spending gap as 
identified by EPA's gap analysis?
    Mr. Johnson. Senator Jeffords, you appropriately point out, 
and it has been commented on by a number of Senators this 
afternoon that there is a significant gap dealing with clean 
water across America and aging infrastructure. The 
Administration made a commitment that we would achieve a 
Federal capitalization target of $6.8 billion in 2011. When you 
look at the funds that have already gone into the Clean Water 
SRF, and then you couple that with what the President's request 
is for 2006 of $730 million, that meets the Administration's 
commitment for Federal capitalization target of $6.8 billion in 
2011.
    You can look at it a number of ways. It also equates to 
that over time it will evolve at about $3.4 billion per year. 
In addition to those moneys, obviously Federal moneys, States, 
local communities, rate-payers, as well as additional voluntary 
programs that we at the Federal level and a number of Federal 
agencies and States and local communities also need to support, 
help to try to achieve a better sustainable infrastructure than 
what we have.
    Senator Jeffords. On Monday, December 13, when the 
President nominated Michael Leavitt for Secretary of HHS, Mr. 
Leavitt recorded a voice mail that was distributed to EPA 
employees. That message said that he had a meeting with 
President Bush where he personally made the decision to move 
forward on clean air interstate rule, and that the President 
had made the decision to finalize that rule by March. Is that 
still the schedule?
    Mr. Johnson. We are still moving toward that target to 
finalize the rule. Again, our preferred approach is to see the 
Clear Skies legislation passed for the reasons I have already 
stated, sir.
    Senator Jeffords. The EPA budget contains documents that 
indicate that the agency intends to reduce its personnel level 
by 273 employees. Could you explain why this is necessary, 
whether any parts of the agency have instituted hiring freezes, 
and whether reductions in force or buyouts will be necessary in 
the upcoming fiscal year?
    Mr. Johnson. The approximately 300 FTE reduction that you 
refer to is over 2 years, both this fiscal year as well as next 
fiscal year. When I look at what our current FTE level of 
employees is, we are right where we need to be. There certainly 
is no agency-wide freeze. I am not aware of any local freezes, 
if you will, but I certainly would expect that all the managers 
across all our programs and regions would manage their 
resources accordingly. So as they hire up to their ceiling, 
they need to manage to that ceiling.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Jeffords.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Just for the 2 Mr. Johnsons. When I say Mr. Johnson, 
everybody is going to jump.
    Mr. Johnson. We are unrelated, sir.
    Senator Isakson. I thank you for coming. Thank you for your 
testimony. You made a comment with regard to mercury in 
answering the question from Senator Jeffords. Clear Skies is 
the first time that we have established targeted goals, I 
believe a 70 percent reduction, of mercury. That is correct. I 
applaud the President for his recommendation and you for the 
encouragement of that, because there is no question that 
mercury is something that we have got to regulate, and that 
Clear Skies is clearly an opportunity to have a significant 
reduction in that over a meaningful period of time.
    The second thing, in your written statement, and I am not 
sure you said this, because you were leaving some of it out, 
there is a sentence that says, this funding provides additional 
resources to States in order for them to contribute to the 
development of this baseline of water conditions across our 
country, and what you were referring to I believe is a $24 
million program in terms of monitoring of water and clean 
water.
    My State of Georgia, and this may be unique only to my 
State, has more counties than any State in the country except 
the State of Texas. We have more incorporated municipalities 
than anybody I think in the world. So we have a lot of 
governments. Throughout your written testimony, you refer to 
watershed, rather than government, because water does not pay 
attention to political boundaries.
    Are there any incentive moneys to encourage multi-
jurisdictional participation in storm water management, soil 
sediment erosion control and other water quality issues at the 
department?
    Mr. Johnson. Yes, there are. If it pleases the Senator, I 
would like to invite our Assistant Administrator, Ben Grumbles, 
who heads up our water program, to give you some specifics. 
Ben?
    Mr. Grumbles. Senator, you have hit the nail right on the 
head in terms of one of the greatest challenges and 
opportunities, and that is if we truly want to manage our water 
resources on a watershed basis, it has to be based on both 
voluntary approaches and incentives, and also working together. 
The monitoring initiative that you pointed out, the $24 million 
which is additional funding being requested in the budget, is 
for States to develop tools to better monitor their water.
    It also complements the whole targeted watershed approach 
that we are trying to achieve. There is a $15 million request 
in the President's budget, Senator, for collaborations, 
voluntary innovative approaches to respond to nutrients or 
invasive species or whatever the challenge is in a particular 
watershed to try to provide incentives for local groups, 
governments, local governments, watershed organizations to work 
together. That includes stormwater, as well as other types of 
water challenges.
    Senator Isakson. I commend you for doing that. I was hoping 
that is what it meant, because in our particular State and in 
my personal experience, we can move light-years ahead in terms 
of water quality if we get multi-jurisdictional cooperation 
within watersheds and have a team approach, rather than some of 
the problems we have in other areas where one community is 
directly hurting another community because of an absence of 
attention and cooperation.
    My other comment would not be a question, but it would be 
to thank the department. How long have you been there, Mr. 
Johnson?
    Mr. Johnson. Almost 25 years, sir.
    Senator Isakson. You were there, then. I will thank you, 
and I will thank you, Mr. Johnson, on general principles as 
well. Five years ago, we came to the department to ask for a 
waiver. The city of Atlanta, as you know, has been a poster 
child for nonattainment, and we have had significant clean air 
difficulties. We also had probably one of the dirtiest cleanup 
jobs known to man, known as the Atlantic Steel plant right 
downtown. We came to the department and asked for a waiver to 
allow us to construct a bridge across the dual Interstates 75 
and 85 that go through the center of town, to open up that 
property to development. The department, and Secretary Browner, 
I think, at the time was the head of the department, granted 
that waiver.
    I would like to tell you what the result of that is today. 
The bridge is built. Traffic on the Interstate is reduced 
significantly because it now flows with people going from one 
destination to another downtown who do not have to get on the 
Interstate to go there. The dirtiest cleanup site in the State, 
in fact Atlantic Steel kept a skeleton crew employed and kept 
the plant open so as not to ever have to clean it up. The new 
buyers came in, completely replaced all the soil, completely 
cleaned the entire area up. It has now been redeveloped into 
one of the most successful residential, commercial, office, 
retail and entertainment mixed-use developments in the country.
    Five years ago, it was a wasteland and it was regulation 
that prohibited the cleanup. You all were open-minded, willing 
to grant that waiver, and I just want to let you know next time 
you are in Atlanta if you will drive by that, you will be very 
glad you did it, and we are very appreciative that you did it.
    My principle has always been in environmental management 
that there are best management practices and sometimes what 
someone might fight is sending a waiver, but it actually can 
take us to a period of time with far cleaner air and far 
cleaner water. That is a shining example of it, and we are 
grateful to you for your work on that.
    Mr. Johnson. Thank you.
    Senator Isakson. I yield back, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Isakson.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    Speaking of cleaning up the environment as Senator Isakson 
did, one of the greatest programs has been the Superfund 
program. Signed by Jimmy Carter, and actually the fund, the fee 
was expanded by Ronald Reagan, supported by George Bush's dad, 
and very strongly supported by President Clinton. This is the 
first President in history since Superfund not to support the 
fee.
    Now, the fact is for one-third of the sites, you cannot 
find a responsible party. That is from EPA themselves. So there 
are polluters who are not paying at all. That is why it is very 
disturbing to see that the load is falling on the taxpayers, 
whether they are in Georgia or California or New York or 
anywhere.
    So it is a sad day for us. Of course, we have not seen a 
slowdown of the cleanups to 40. Under Bill Clinton, it was an 
average of 80 sites cleaned. There are many of these sites all 
over the country. New Jersey has most of them, but California, 
New York and other places all have them.
    So this is a serious issue, and one that I am not going to 
belabor. Obviously, the President does not support the fee, and 
that is the way it goes. There is bipartisan support for the 
fee in this committee, not with everyone, but we will be 
pushing that issue.
    My question for you is, one of the problems we have had 
recently with the Bush administration is that we cannot get the 
list of the sites. We cannot get the list of what are your 
priorities, what are the most dangerous sites. Would you make 
that information available to Senators who may want that 
information?
    Mr. Johnson. I am happy to provide information on the sites 
as we go through our ranking and evaluation.
    [The referenced information can be found on page 141.]
    Senator Boxer. When will that be?
     Mr. Johnson. I do not know how quickly we can do this, but 
let me ask our acting assistant administrator.
    Senator Boxer. That would be wonderful.
    Mr. Johnson. This is Tom Dunne.
    Senator Boxer. Mr. Dunne, thank you, because I have had 
problems with getting information out of EPA on your priority 
list, and what the most dangerous projects are.
    Mr. Dunne. Senator, what we have is a number of career 
people, one from each regional office who sits on a risk panel. 
Every year, generally in the summer, they rank the projects 
based on health risk.
    Senator Boxer. Right. That is what I am interested in.
    Mr. Dunne. That can change from year to year, because as 
new sites are added, you can fall down the list if you do not 
have as high a risk. We do not keep a list on a day-to-day 
basis, but I guarantee you all our decisions have been made.
    Senator Boxer. Can you send me your most recent list, then?
    Mr. Dunne. I think we can show you what we have from the 
last fiscal year.
    Senator Boxer. That would be very helpful. What we are 
interested in, of course, is that your list is going forward. 
When will that be done? This summer?
    Mr. Dunne. Sometime in the late spring or early summer.
    Senator Boxer. Will you make a commitment to get that list 
to those Senators who want it?
    Mr. Dunne. Sure.
    Senator Boxer. Thank you very much. That would be very 
helpful.
    Mr. Chairman, on the Brownfields question. I think all of 
us really applaud that legislation. I worked on it with 
Senators Chafee and Smith, and Senator Jeffords and others. 
What we see is that 490 out of the 755 projects were not funded 
by EPA. Eleven of those were from my State. So we have many 
sites that remain idle and dirty, blighting neighborhoods and 
hampering local development, which is very important. I started 
out as a county supervisor. We want to be able to utilize these 
sites. Generally, they are infill. They are close to the cities 
and they are important economic potential.
    My question to you is, how many sites will remain unfunded 
under your particular proposal, which is a very small increase 
in this program?
    Mr. Dunne. That is hard to tell. It depends on how many 
applications we get. Right now, there is a competitive process 
that is going on for local communities, and organizations have 
sent in applications. We expect that there will be a few 
hundred that will not be funded. The list has gone down in the 
last couple of years as community groups and developers 
understand the complexities of dealing with contaminated land. 
While it started out 2 years ago, in the first year of 
Brownfields, with over 1,000 applications. Last year, I believe 
it fell to about 700. The last figure I heard was it is falling 
further this year.
    Senator Boxer. How many sites are not going to be cleaned 
up?
    Mr. Dunne. Sites, we could take a look at the number of 
sites.
    Senator Boxer. Could you get me that information, please, 
as soon as possible?
     Mr. Dunne. We have issued actually a market report that 
came out in the last couple of months that is a very frank 
analysis of all contaminated sites as best as we can estimate. 
That is underground source, Brownfields.
    Senator Boxer. So you can get me that information?
    Mr. Dunne. It is a book that we will be happy to send your 
staff.
    [The referenced information can be found on page 140.]
    Senator Boxer. Please, if you would do that right away.
    My other question on leaking underground storage tanks, one 
of the most serious threats to the nation's groundwater. It can 
hold extremely toxic chemicals that can move rapidly through 
soil. We know that MTBE, that presents a substantial risk to 
health and environment and economic growth. There are 670,000 
underground storage tanks in the United States and 160,000 in 
California; 437,000 are leaking; 42,000 in California. Cleanups 
have slowed down by over 20 percent in recent years.
    I am concerned. Since there is, in my understanding, a 
trust fund for the cleanup of these tanks, and my understanding 
of the information I have, looking at the unspent money, it is 
over $2 billion. So in face of the 130,000 needed cleanups, why 
did the Administration fail to request additional funding from 
this special reserve, which is collected specifically to clean 
up leaking underground storage tanks?
    Mr. Johnson. Senator Boxer, we will have to get back to you 
for the record.
    [The referenced information can be found on page 136.]
    Senator Boxer. Mr. Chairman, thank you very much for giving 
me 7.5 minutes. I am glad, because the fact is I am not getting 
answers to these questions, and they are very important to me. 
So please, as soon as we can, this is key to economic 
development. It is key to the health of our people, the health 
of our kids. We will work closely with you.
    Mr. Chairman, I thank you very much for this opportunity.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. I also appreciate 
the testimony of the Johnsons. I feel very at home, being from 
South Dakota, being surrounded by Johnsons.
    [Laughter.]
    Senator Thune. I appreciate your testimony and your 
responses to these questions. I am also interested in a number 
of the programs that are under this committee's jurisdiction. I 
would point out, and correct me if I am wrong, that when the 
Superfund tax or fee expired in 1995, that there was not a 
request for it to be reinstated under the Clinton 
administration at a time when the Democrats controlled both the 
House and the Senate. Actually, that would be prior to 1995. I 
guess that is right. We had the Congress by then. In any event, 
the point being that the Clinton administration did not request 
an increase or the reinstatement of that fee.
    The other thing I guess I would point out, and I think it 
is important, is that we have some issues in South Dakota with 
respect to Superfund sites, too, sites that have been for the 
most part cleaned up, almost complete, anyway. We have received 
a considerable amount of funding, and in most cases there are 
situations where you cannot identify a responsible party. That 
was the case with one of the mines in South Dakota. I think it 
is a program that has been used effectively to do some very 
successful cleanup sites.
    The same thing is true with respect to Brownfields. I was 
just noting the increase, as I understand the numbers here, in 
Brownfields funding, the Administration has requested $210 
million for the Brownfields Program, an increase of $46.9 
million over the enacted 2005 funding level, which is, if my 
arithmetic is correct, about a 28 percent increase in funding 
for that program, which I do not think is inconsequential in 
light of where the overall budget numbers are this year and the 
constraints that we have to live under.
    I look forward to working on these issues. These are issues 
that will fall under the jurisdiction of our subcommittee, and 
I look forward to working with the Senator from California, who 
I think has since left, on these issues that are important to 
her State as well.
    A couple of points with respect to issues that I have 
particular concerns with in South Dakota, one being, and I 
appreciate your agency's help regarding the tier II sulfur 
issue. I am hopeful that we can work together to find a 
solution to the issue in Pierre and Fort Pierre, SD. That is a 
community that is divided by a river, but because of 
complications that have come up regarding the geographic phase-
in area, fall under different regulations and different 
standards, which does not really make any sense if you 
understand at all the geography of South Dakota. So I look 
forward to working with you, and would appreciate your 
assistance on that matter.
    The other concern I would like to express is having to do 
with the clean water SRF program. Based on my calculations, 
South Dakota would lose roughly $3 million compared to the 
funding that it received last year. Clearly, Congress continues 
to fund this program at a higher level than the Administration 
supports. I think that has been demonstrated historically, 
largely due to the overwhelming needs not only in my home State 
of South Dakota, but across the country.
    If you look at South Dakota, 50 percent of the assessed 
rivers and 84 percent of the assessed lakes are designated as 
having impaired water quality. The leading sources of water 
pollution include erosion, agricultural runoff and non-point 
source pollution.
    Now, having said that, we did I think some significant good 
work in the Farm Bill in 2002 in improving. In fact, there was 
a piece of legislation I introduced on the House side which was 
incorporated in the Farm Bill called the Conservation Security 
Program, which is designed to provide incentives for farmers on 
farmable lands to practice conservation. It is an incentive-
based program. I hope that we can continue to move incentive-
based approaches when it comes to cleaning up our groundwater 
in places like South Dakota.
    Of course, the CRP program has been very successful, not 
only with respect to erosion, but also in wildlife production, 
something that is also important in my State. The EQI Program, 
the Environmental Quality Incentive Program, is also something 
that has been fluffed up significantly in the 2002 Farm Bill. 
Those programs are all I think having a very positive impact. 
What we are talking about here is the Clear Skies legislation, 
and I am hopeful that we can continue to make progress toward 
cleaning up our water and cleaning up our air.
    In coming back to the whole question of the SRF, that is a 
program that has been used significantly by a lot of States. 
South Dakota, I know in my experience, has made considerable 
good use of that program. I guess I am just curious to get your 
reaction about what the rationale was for the reduction in that 
particular area of the budget.
    Mr. Johnson. Yes, sir. As we looked at the Clean Water SRF 
and looked at the funding that was provided in 2004 and 2005, 
we reflected on the Administration's commitment to, one, have a 
revolving fund that would both have a Federal capitalization 
target of $6.8 billion in 2011, and achieve around a $3.4 
billion per year revolving amount. As we calculated those 
numbers to achieve that commitment, in light of the commitments 
made last year and the year before--this year, the number is 
$730 million.
    So when you take and calculate that out through now and 
2011, it honors that commitment. Obviously, we are in a 
fiscally restrained budget, but it was important, because this 
is an important area for States and local communities, but it 
was also important to honor our commitment.
    Senator Thune. I expect I am going to be hearing from my 
Governor, as well as our Department of Environment and Natural 
Resources in South Dakota as they begin to pore over this 
budget. As I said earlier, Congress has demonstrated an 
inclination, a willingness in the past to plus-up the 
Administration's budget in that regard. It is a program that 
has been very well used by the States, and I think done some 
very good things with respect to cleaning up the environment.
    On that note, thank you again for your testimony and I look 
forward to working with you and this committee as this process 
moves forward.
    Mr. Chairman, I yield back.
    Senator Inhofe. Thank you, Senator Thune.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Mr. Chairman, just 2 points to clarify the record. Every 
Clinton budget post-1995 assumed the reinstatement of the 
polluter-pay tax, and in fact the Administration consistently 
supported reinstating the polluter-pay tax. Unfortunately, 
there was not much appetite for doing that in the Congress. 
Second, with respect to Senator Isakson's point, it is my 
understanding that EPA does control mercury coming out of 
incinerators. We have had recognition of the control of mercury 
for quite some time. We have just never taken it to the stage 
it needs to be moved foward, which is to control the emissions 
from dirty power plants.
    Mr. Johnson, let me ask you specifically, when do you think 
a new Chair will be named for the World Trade Center panel?
    Mr. Johnson. Senator Clinton, first of all, thank you for 
your kind remarks with regard to the effort by Dr. Gilman and 
others on the World Trade Center, an important topic for all of 
us, and to do what we all need to do to address that situation.
    Since we are in the midst of the President looking for an 
Administrator for EPA, and also there are several key positions 
that we are actively looking for highly qualified individuals, 
including the Assistant Administrator for our Office of 
Research and Development, while that process is going on, I 
have asked Tim Oppelt, who is the director of our Cincinnati 
lab who oversees all of our research in homeland security, if 
he would serve as an interim Chair for this upcoming meeting, 
and then report back to me directly so that the important 
progress that we have made thus far will continue.
    Senator Clinton. Thank you very much.
    Mr. Johnson. I also made a conscious decision that rather 
than waiting for people to be in positions, that I thought it 
was important for us to move forward with having our next panel 
meeting. So we have announced that we are having our next panel 
meeting on February 23. Mr. Oppelt will be filling in to chair 
that for me, reporting directly back to me, so that we can move 
forward with the important progress.
    Senator Clinton. Thank you very much. I know that my 
constituents appreciate that as well.
     Mr. Johnson, with respect to the Deutsche Bank Building, 
has the EPA followed up with the Lower Manhattan Development 
Corporation to ensure that the suggested changes that EPA made 
with respect to the technical considerations about the 
demolition, has that been followed up with the Lower Manhattan 
Development Corporation?
    Mr. Johnson. Our Region II office out of New York, as you 
are well aware, was following this and in fact were the ones 
who were instrumental in achieving what you had said. I am not 
sure whether that follow-up has or has not occurred.
    Senator Clinton. Could you get back to me on that?
    Mr. Johnson. I would be happy to get back to you for the 
record.
    Senator Clinton. I think it is important. There was a great 
cheer that went up from Lower Manhattan when the EPA set forth 
its concerns. I would like to keep getting you good press in 
Manhattan.
    Last August, I wrote to the EPA to ask for attention to a 
Title VI claim that had been filed by the Syracuse University 
public interest law firm on behalf of a group called the 
Partnership for Onondaga Creek, a grassroots community group 
including neighborhood residents from blocks where Onondaga 
County plans to build an above-ground sewage plant. I was very 
pleased to learn, after I sent my letter, that EPA contacted 
the claimants to indicate that a review of the claim had begun. 
Can you tell me when the review of this claim will be 
completed? Can you get back to me with that information? I see 
someone nodding who looks very knowledgeable back there.
    Mr. Johnson. We have Ann Klee, who is our General Counsel. 
Since she was the one who was nodding, come up to the table. 
Ann.
    Ms. Klee. Senator Clinton, we are reviewing the document. 
We just received it and we expect to have it finalized, I would 
say, shortly, probably within a month. I think the deadline is 
March 17, but I could be wrong on that.
    Senator Clinton. Great. Thank you. That will also be good 
news to my constituents.
    Mr. Johnson, usually we have expected in the Congress every 
4 years a report on the reduction and deposition rates of acid 
rain, the National Acid Precipitation Assessment Program 
report. The last report was in 1998. When can we expect this 
report to be delivered to the Congress?
    Mr. Johnson. Senator, let me ask Jeff Holmstead, who is our 
Assistant Administrator for Air and Radiation.
    Mr. Holmstead. Senator, what I can tell you is that there 
is a draft of that report that is undergoing review right now. 
I think it is actually produced by the Office of Science and 
Technology, and we have been one of the agencies that have been 
reviewing it. It is actually the subject of pretty intense 
scrutiny by a lot of science agencies. So what I can say is 
that it is undergoing review. I do not know exactly what the 
timeframe is, because it is not our document, but I do know 
that folks in my office have been looking at it, so I would 
assume it would be out relatively soon.
    Senator Clinton. It would be helpful to have it on a fast 
track since it is somewhat overdue, if we were to keep the 4-
year schedule. I appreciate that.
    Finally, Mr. Johnson, last week when CEQ Chairman 
Connaughton testified before this committee about Clear Skies, 
he said at that time that the Administration had not taken a 
position with respect to S. 131. You have made several 
references in your testimony today to Clear Skies. Are you 
indicating that the Administration has made a decision to 
endorse and support S. 131?
    Mr. Johnson. No, do not misunderstand from my comments. 
Obviously, the President submitted Clear Skies legislation now 
2 years ago, and we know through Chairman Inhofe's leadership 
that markup is next week.
    Senator Clinton. So you were using that as a sort of 
generic?
    Mr. Johnson. I was using that as a generic, that certainly 
we support Clear Skies legislation. The President put a 
proposal on the table. I know that there will be a markup next 
week and we look forward to seeing the results.
    Senator Clinton. Could I ask you specifically, with respect 
to the fact that we are having a markup next week, section 
407(J) of S. 131 includes a provision that carves out 
exemptions from current Clean Air Act requirements for 4 entire 
source categories, more than 70,000 units. This removes these 
units from Clean Air Act regulations for hazardous air 
pollutants, including carcinogens like benzine, probably 
carcinogens like formaldehyde and other nasty things like 
arsenic. I asked Mr. Connaughton whether the Administration 
specifically supported that provision and whether the EPA had 
produced estimates of how many facilities would qualify for 
exemptions under this provision, and whether there had been any 
modeling about potential health impacts of those exemptions.
    Mr. Connaughton said he would get back to me with answers, 
which he has not yet done, but I think the committee needs 
answers to those questions. I do not see how we can proceed 
with a markup next week on a piece of legislation that creates 
such a big carve-out that could have deleterious health 
impacts. So could we expect to get answers before our markup 
next week?
    Mr. Johnson. I will have an answer for you, yes.
    Senator Clinton. Thank you.
     Mr. Johnson. I will also point out that the analysis for 
the air program activities, particularly as we get into 
modeling particulate and all the rest, are very intensive, and 
in fact take weeks to accomplish.
    Senator Clinton. Thank you.
    Senator Inhofe. Thank you, Mr. Johnson.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Well, it is budget time, and I have been since Monday, I 
think, humming that Rolling Stones tune, You Don't Always Get 
What You Want, but if you try real hard you just might get what 
you need.
    I want to talk about something that we need in Alaska. The 
proposal before us now is a two-thirds cut in the EPA funding 
to bring safe water and wastewater disposal to Native villages 
in the State. In fiscal year 2005, we funded this program at 
$45 million, but for 2006 we are looking to set this funding at 
just $15 million. I guess if we had, with regard to this 
program, received a small increase or no increase at all, like 
so many of the other domestic discretionary programs have, I 
could understand, but the two-thirds cut of the money that EPA 
is spending to really alleviate third-world conditions that 
remain in so many of our Native villages I think is something 
that we really need to closely scrutinize.
    As we look at what we have been able to accomplish up in 
the State through the construction of the sanitation villages, 
we know for a fact that it reduces infant mortality. We know 
for a fact that it reduces the incidence of disease. The Indian 
Health Service makes this point every year to the Committee on 
Indian Affairs on which I sit. The section of the President's 
budget on Indian Health Service again reiterates the importance 
of this.
    What we have seen with this program over the years, we have 
in terms of the percentages of homes in rural Alaska now with 
running water and sewer, we have seen an increase. In 1995, we 
were at 51 percent of the homes in our villages that had 
running water and sewer, up to 77 percent in 2003. That is the 
latest year for which the data is available. As we look to the 
contributions in terms of the communities, these are not 
sizable communities. These are villages. We are at 
approximately 135 villages now with active projects. This is 
135 out of the 231 federally recognized Alaska Native villages 
that are currently receiving the funding. So we have over 200 
of our villages that have received funding under this program, 
the benefits extending to close to 95,000 Alaskans.
    As I understand the reason for this cut was not necessarily 
to help with the deficit, but it was more out of a controversy 
between EPA and the State of Alaska in terms of a disagreement 
about how well the program is operating, a concern that may 
have been presented before this previous Administration at the 
State level, concerns relating to deficiencies in EPA's 
management. I can understand why some in OMB might think that 
this program is ineffective, but when it comes right down to 
the individuals and to the communities, the people in rural 
Alaska do not believe it is ineffective.
    We view this as a program that will eliminate the honey 
bucket, and for people that do not know what honey buckets are, 
they are five-gallon buckets where people put their waste. The 
only way that you can dispose of that waste is to walk out your 
front door and walk down to a community central disposal, or 
down to the lagoon. You slop the stuff on the ground, amungst 
the kids and the dogs. This is happening in this century in the 
United States, in my State. We need to continue the progress 
that we have had.
    If EPA and the State have differences or disagreements as 
to how we operate the program, let's work that out, but let's 
not penalize the Alaska Natives that are living in this 
village.
    I want to know that we can work with you on this. I do not 
know if you have had an opportunity to come and visit the 
State. Secretary Thompson when he was the Secretary, really 
made an effort every single summer to come up to the State and 
visit some of the most remote places in the State to really get 
a sense of what is going on. I would invite you to do the same.
    I want to make sure that we are able to truly eliminate the 
issues of disease, of infant mortality, that come about when we 
in this very primitive way are disposing of our waste. If we 
could even continue the village safe water funding that we had 
at the 1995 levels, we would be able to complete the agreed-
upon State EPA project list in 3 years. If we do not, we are 
going to wait for at least an additional 8 years to get minimal 
water and sewer in to these villages.
    So I wanted to take this time to stress to you that it is 
not an experimental program that does not have clear results. 
It is not fancy. In most of these villages, people get their 
water by going to a central well somewhere, and again taking 
their five-gallon bucket, hopefully not the same one that has 
been used for other things, but it is a very primitive system. 
It is the best we have at this point in time, and we want to be 
able to continue that progress.
    So I am asking for a receptive ear. I am asking for you to 
work with us on this.
    The other portion of our funding is coming from USDA and we 
are seeing cuts there as well, so these are very real issues 
for us in the State. I hope that you are going to work with us.
    Mr. Johnson. Absolutely. Senator, I certainly look forward 
to working with you and certainly have our commitment. There is 
real need there, and so we certainly want to help you and 
certainly help the Alaska Native villages in whatever way we 
can. I think, as you have already said, as we look through a 
number of important budget issues, we were faced with in this 
case, and we have an IG report. We also have a program 
assessment rating tool or an evaluation of the performance. In 
spite of some of the good progress that has been made, it was 
not matching up and we were not able to fully demonstrate the 
results. So I certainly look forward to, and you have my 
commitment for the agency to work with you so that we can 
strengthen the program, get the kind of results and most 
importantly, meet the needs.
    Senator Inhofe. Thank you, Mr. Johnson. I appreciate that 
commitment.
    Let me advise my colleagues that we have 10 minutes left on 
the first of several roll-call votes. I will stay here until 
they have concluded their questioning, but if you can cut it 
short we can all three make these votes.
    Let me go ahead though and get something in the record I 
think is important. It is my understanding that the IG report 
on mercury spoken of earlier was extremely poor quality, and 
the IG's office criticized the FACA process for failure to even 
ask a cross-section of members whether they agreed with the 
IG's conclusion, which apparently they did not. I wanted to 
have that into the record.
    We will recognize Senator Obama.
    Senator Obama. Thank you, Mr. Chairman.
    Mr. Johnson, I am going to have to be quick. I understand I 
have 4 minutes, so if we could keep the responses brief. 
Something very specific to Illinois, and that is Waukegan 
Harbor, I mentioned earlier. Can you tell me how the decision 
making with respect to the Great Lakes Legacy money is going to 
be allocated, and what do we need to do as members of the 
Illinois delegation to make sure that the case is made with 
respect to Waukegan? How can we make sure, and then how can we 
get an assurance from you that Waukegan is going to get its 
fair share of those dollars?
    Mr. Johnson. You certainly have my commitment that 
everybody will have the opportunity to get its fair share. 
There is a priority-setting mechanism. Let me ask Ben Grumbles, 
who is very familiar with that system.
    Mr. Grumbles. Senator, what we are going to do is follow 
the statutory criteria that are laid out in the Great Lakes 
Legacy Act. The focus is on, I think we have about 14 proposals 
so far, but the focus is on a couple things. One is areas of 
concern, of which there are 31 areas of concern in the Great 
Lakes. Another one is risk. What is the risk-benefit analysis, 
what can we do working with our partners to reduce the risk and 
to get environmental results?
    Another important criterion is the statutory cost-sharing, 
65 percent Federal, 35 percent non-Federal. So those are some 
of the factors, but it is spelled out and our Great Lakes 
National Program office is tracking it far more closely than I 
can. I can certainly commit to work with you and your interests 
in Waukegan Harbor.
    Senator Obama. I would appreciate that.
    Senator Inhofe. Senator Thune is presiding. Excuse me.
    Senator Obama. OK. If you can ensure that your office 
contacts whoever it is that our office needs to talk to to make 
sure that this is moving down the pipeline, I would appreciate 
that very much.
    The second question, which is related, has to do with 
homeland security and protecting our water supply. I know that 
it has not been discussed yet, but my understanding is there is 
a substantial boost in funding for protecting the water supply. 
Obviously, there are cities like New York and Chicago that are 
of particular concern as targets generally with respect to 
homeland security. When I met with the upcoming Secretary of 
Homeland Security, I talked to him about that.
    How is the selection process going to work with respect to 
these pilot programs? Are you in the process of making 
guidelines for that?
    Mr. Grumbles. Senator, we are in the process of developing 
guidelines. My understanding is that we will be selecting 
several cities. We will not publicly disclose the identity of 
those cities, similar to the BioWatch Program.
    Senator Obama. I understand.
    Mr. Grumbles. The points you are making about population 
and risk in largely populated areas are very much a part of the 
discussions about the guidelines for this new Water Sentinel 
Program to monitor for contaminants in distribution systems.
    Senator Obama. I recognize the need to not fully disclose 
the approach here, but is there going to be any means by which 
Senators, Congressmen, legislators have some sense of how this 
money is being spent?
    Mr. Grumbles. Since this is a new program and funding is 
being requested for the first time in the fiscal year 2006 
President's Budget, there will be a lot of opportunity for us 
to provide guidance that explains our thoughts to you and all 
members of this committee as well as the appropriations 
committees.
    Senator Obama. I would be interested in follow-up from your 
office on that.
    Thank you, Mr. Chairman.
    Senator Thune. Senator Lautenberg.
    Senator Lautenberg. Thanks.
    Mr. Chairman, first the unanimous consent request that my 
opening statement be put in the record as if read.
    Senator Thune. Without objection.
    [The prepared statement of Senator Lautenberg follows:]
         Statement of Hon. Frank Lautenberg, U.S. Senator from 
                        the State of New Jersey
    I have significant concerns about the President's budget request 
for the Environmental Protection Agency. I understand the difficult 
choices we have to make, but from my perspective, the President's EPA 
budget will not meet our responsibility to protect human health and the 
environment.
    Perhaps nothing illustrates this better than the President's 
request for the Superfund Program, which would be cut by $100 million. 
Superfund is already strapped for cash. The cut in next year's budget 
comes on top of a 35 percent cut in funding over the last decade.
    Mr. Chairman, Superfund is not just about a few select States. It 
affects the entire country. One out of every 4 Americans lives within 4 
miles of a Superfund site and 10 million of those are children. The 
Washington Post ran an article a few months ago reporting on a visit by 
former EPA Administrator Mike Leavitt to a Superfund site in Omaha, NE. 
As with so many others, that clean-up is barely moving. At a news 
conference, Samantha Bradley, a feisty 8-year-old, confronted 
Administrator Leavitt. She felt the government was ignoring her and her 
family and the health risks they faced. Samantha said, ``If the 
president or the mayor lived in this neighborhood, they'd probably get 
it cleaned up like that.'' The President's EPA budget leaves Samantha 
and many other children across the county behind.
    Mr. Chairman, I have many other concerns about this budget request. 
For instance, there isn't sufficient funding for the nation's water 
infrastructure, which is overwhelmed and allows billions of gallons of 
untreated sewage to flow directly into our rivers. This is a serious 
public health issue and now is not the time to be cutting back on this 
program. Given the current rate of sewer overflows, within the decade 
our rivers will resemble the cesspools many of them were in the 1970's. 
We must stop this backward slide.
    I could go on and on, but I'll stop here to stay within my allotted 
time. It looks like we have a lot of hard work to do to restore 
adequate funding for crucial programs that protect the health of our 
children and the environment. Thank you, Mr. Chairman.

    Senator Lautenberg. Thanks, Mr. Chairman.
    Since there is very little time available, I will try to 
get to a couple of things that are of particular interest. I 
would again ask that the record be kept open, Mr. Chairman, so 
we can submit questions in writing and that the witnesses will 
be instructed to respond to those.
    Senator Thune. Without objection.
    Senator Lautenberg. On a local problem, Mr. Johnson, and I 
thank both of you, the Johnsons, for being here and for 
testifying. Mr. Johnson, you have been a long-time EPA person, 
and I was a long-time EPA person, but I graduated to freshman.
    [Laughter.]
    Senator Lautenberg. Over 2 weeks ago, I wrote a letter 
asking that the agency help break a deadlock between Ringwood, 
NJ and EPA over how many properties to test for toxic 
contamination. This small community of a few hundred resident 
properties in Ringwood. Can we be assured that all of these 
sites will be tested so that we can get on an assessment and a 
decision about how we get this community cleaned up?
    Mr. Johnson. If I could ask Tom Dunne to quickly come to 
the microphone and give you a status update.
     Mr. Dunne. Senator, I have not seen that particular letter 
on that particular community, I don't believe. We are planning 
on in fiscal year 2006, as we are in 2005, to continue to do 
the preliminary assessment site investigations on all sites 
that come to our attention. That has fluctuated over the years. 
Currently, it is 500 for this year, and I believe it is going 
to be 500 for 2006. So I will talk with the Region II office 
and reply to your letter.
    [The referenced document can be found on page 149.]
    Senator Lautenberg. This has been lingering for some time, 
and I would ask that you proceed with it as quickly as 
possible. I am anxious to get a response to that.
    Mr. Johnson, I do not know whether to refer to you as 
Johnson I or Johnson II.
    Senator Lautenberg. Anyway, the question was discussed here 
briefly about Superfund and how we would continue cleanup 
programs. It is pretty hard to see quite how we do it. You did 
respond to the Chairman, Senator Inhofe, about his interest in 
making certain that no polluters were let off the hook and so 
forth. However, isn't it true that before a decision has been 
made, finalized, to identify a polluter and get on with this 
work, that there are often lots of lawsuits that those 
technically responsible get into, trying to direct blame 
elsewhere or delay the process? Is that so?
    Mr. Johnson. Certainly, that is my experience, but that is 
also the life at EPA.
    Senator Lautenberg. We do not want life at EPA to be cut 
short.
    Mr. Johnson. Yes. I think in fairness, that there are some 
responsible parties who acknowledge that they are, and they 
step up to the plate and they do the appropriate thing, 
obviously working through. Then there are others that want to 
take the litigation route.
    Senator Lautenberg. Right. So as a consequence, we wind up 
with these orphan sites and they have to be treated out of the 
trust fund, and that is diminishing, the pace for cleanup has 
slowed down considerably. Would you acknowledge that?
    Mr. Johnson. The pace has slowed down in one sense, but 
also the sites have significantly changed over the years, from 
the early days of Superfund where the sites were fairly small, 
were fairly circumscribed. The contaminants maybe were 1 or 2 
chemicals. Now, they are multiple, multiple acres and very 
complex.
    Senator Lautenberg. But there is also a question of 
funding, is there not?
    Mr. Johnson. Well, for each of our issues there is always a 
question of funding. Again, as we look at----
    Senator Lautenberg. Could we cleanup more sites if we had 
more money? Do we have the capacity to do it?
    Mr. Dunne. Yes, I think so, Senator.
    Senator Lautenberg. I don't mean to cut you short.
    Mr. Dunne. We have been open for 2 years in terms of what 
has not been funded by site. Last year, I went public very 
early in the year, as soon as we knew what our limitations 
were, and there were 19 sites that were ready for construction 
that could not make it, and we saw another 15 coming down the 
pipeline that were in some kind of a design phase that we 
thought would be eligible. So I think that is a fair statement.
    Senator Lautenberg. Because time has run out and red lights 
here mean what they do on the street, and that is you speed up 
when you see a red light.
    [Laughter.]
    Senator Lautenberg. In 2004, 265 Brownfield sites were 
granted funding. It is estimated that are somewhere over 
500,000 sites. I expect to have a long life. I am just getting 
started with things, so if we divide 265 into 500,000, it could 
take a long time, and by then I should probably be back to my 
senior status on the committee.
    [Laughter.]
    Senator Lautenberg. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Thune. I thank the Senator.
    I thank our witnesses. I would also make one point of 
clarification for the record. I had said earlier that President 
Clinton did not seek to reinstate the Superfund fee. The 
Senator from New York, who would know, correctly pointed out 
that he did in his budgets include that proposal to reinstate 
the fee. She was right and I was wrong, so I thought I would 
point that out for the record.
    Thank you all very much. This hearing is adjourned.
    [Whereupon, at 4:20 p.m. the committee was adjourned, to 
reconvene at the call of the chair.]

      Statement of Hon. Stephen L. Johnson, Acting Administrator, 
                    Environmental Protection Agency

    Mr. Chairman and Members of the Committee, I am pleased to 
be here to discuss the Fiscal Year (FY) 2006 budget request for 
the Environmental Protection Agency (EPA). The President's 
fiscal year 2006 budget request of $7.6 billion reflects a 
strong commitment to protect human health and safeguard the 
environment. This includes moving forward EPA's core programs 
as reflected in the nation's environmental statutes. This 
request will also ensure that EPA's critical role in homeland 
security is made a top priority.
    Mr. Chairman, the Agency has accomplished a great deal. We 
have cleaned the water, improved our air and protected and 
restored our lands. While the nation's environmental well being 
has shown a steady improvement, there is more to do. Much of 
what remains is enormously complex and more expensive.
    Bringing a healthy environment to our communities is a 
responsibility we all share. Engaging the full range of 
partners--not just Federal, State, tribal, and local but also 
businesses, interest groups, international and regional 
authorities and educational institutions--leverages our Federal 
moneys through collaboration. New science, innovation and 
technology development, regulation, and market-based solutions 
that support these efforts are all a part of this budget 
request.
    This budget, Mr. Chairman, will enable us to carry out our 
goals and objectives as set forth in our Strategic Plan and 
help us to meet our challenges. It supports the 
Administration's commitment to environmental results by 
identifying new and better ways to carry out EPA's mission 
while protecting our national competitiveness.

                           HOMELAND SECURITY

    Three years ago we took on significant new responsibilities 
in homeland security work that was necessary to protect human 
health and the environment from intentional harm. In fiscal 
year 2006 we are taking another big step toward filling the 
gaps we've identified. EPA's request includes $79 million in 
new resources for critical homeland security efforts. EPA plays 
a lead role for addressing the decontamination of deadly 
chemical, biological and radiological contaminants. The nation 
must have the tools and procedures in place to respond 
effectively and swiftly to another terrorist event.
    One of our most important homeland security 
responsibilities is to protect our drinking water supply. Forty 
Four million dollars will launch pilots in cities of various 
sizes to explore technology and systems that detect 
contamination before it causes large scale harm. The program 
includes resources to create the Water Alliance for Threat 
Reduction to train and prepare our nation's drinking water 
systems operators throughout the country.
    Response to terrorist events may call for decontamination 
from many new hazards. Environmental decontamination research 
and preparedness increases by $19.4 million, and an additional 
$4 million is requested for the Safe Buildings research 
program. Over $11 million in new resources will support 
preparedness in our environmental laboratories. Working with 
Federal partners in Homeland Security, EPA will plan for 
certain fundamental laboratory network needs, such as 
appropriate connectivity between member labs and standardized 
methods and measurements for environmental samples of 
terrorism-related agents of concern. Resources also support 
training and continuing education for member laboratories, as 
well as accreditation and accountability.

                      CLEAN AIR AND GLOBAL CHANGE

    The fiscal year 2006 President's Budget requests $969 
million to implement EPA's Clean Air and Global Climate Change 
goal through national programs designed to provide healthier 
outdoor and indoor air for all Americans, protect the 
stratospheric ozone layer, minimize the risks from radiation 
releases, reduce greenhouse gas intensity, and enhance science 
and research. EPA's key clean air programs particulate matter, 
ozone, acid rain, air toxics, indoor air, radiation and 
stratospheric ozone depletion address some of the highest 
health and environmental risks faced by the Agency. Also in 
this area, I look forward to working with you Mr. Chairman, in 
passing Clear Skies legislation.
    Clean fuels and clean technologies are also an integral 
part of reducing emissions from mobile sources. The fiscal year 
2006 President's Budget provides $15 million for the Clean 
Diesel Initiative. EPA and a coalition of clean diesel 
interests will work together to expand the retrofitting of 
diesel engines into new sectors by adopting a risk-based 
strategy, targeting key places and working with specific use 
sectors to identify opportunities to accelerate the adoption of 
cleaner technologies and fuels. The $15 million proposed for 
this program will be leveraged significantly by working with 
our partners. Reducing the level of sulfur in the fuel used by 
existing diesel engines will provide additional immediate 
public health benefits by reducing particulate matter from 
these engines.
    EPA's Climate Protection Programs will continue to 
contribute to the President's 18 percent greenhouse gas 
intensity reduction goal by 2012. A fiscal year 2006 funding 
initiative for the Climate Change Program is the Methane to 
Markets Partnership a United States led international 
initiative that promotes cost-effective, near-term methane 
recovery and use as a clean energy source. The program provides 
for the development and implementation of methane projects in 
developing countries and countries experiencing economic 
transition. This initiative also has the opportunity to 
significantly leverage our proposed funding.

                          CLEAN AND SAFE WATER

    In fiscal year 2006, the budget requests $2.8 billion to 
implement the Clean and Safe Water goal through programs 
designed to provide improvements in the quality of surface 
waters and drinking water. In fiscal year 2006, EPA will work 
with States and tribes to continue to accomplish measurable 
improvements in the safety of the nation's drinking water, and 
in the conditions of rivers, lakes, and coastal waters. With 
the help of these partners, EPA expects to make significant 
progress in these areas, as well as support a few more focused 
water initiatives.
    In fiscal year 2006, EPA will work with States to make 
continued progress toward the clean water goals through 
implementation of core clean water programs and acceleration of 
efforts to improve water quality on a watershed basis. Efforts 
include innovative programs spanning entire watersheds. To 
protect and improve water quality, a top priority is to 
continue to support water quality monitoring to strengthen 
water quality data and increase the number of waterbodies 
assessed. The Agency's request includes $24 million to build on 
the monitoring initiative begun in fiscal year 2005 by 
establishing a nationwide monitoring network and expanding the 
baseline water quality assessment to include lakes and streams. 
The initiative will allow EPA to establish scientifically 
defensible water quality data and information essential for 
cleaning up and protecting the Nation's waters. The funding 
provides additional resources to States in order for them to 
contribute to the development of this baseline of water 
conditions across our country.
    To support sustainable wastewater infrastructure, EPA will 
continue to provide significant annual capitalization to the 
Clean Water State Revolving Funds (CWSRF). The budget provides 
$730 million for the CWSRF, which will allow EPA to meet the 
Administration's Federal capitalization target of $6.8 billion 
total for 2004--2011 and enable the CWSRF to eventually revolve 
at a level of $3.4 billion.
    During fiscal year 2006, EPA, the States, and community 
water systems will build on past successes while working toward 
the fiscal year 2008 goal of assuring that 95 percent of the 
population served by community water systems receives drinking 
water that meets all applicable standards. To help ensure that 
water is safe to drink, the fiscal year 2006 President's Budget 
requests $850 million for the Drinking Water State Revolving 
Fund.

                   LAND PRESERVATION AND RESTORATION

    $1.7 billion of the fiscal year 2006 President's Budget 
will help to implement the Land Preservation and Restoration 
goal through continued promotion of the Land Revitalization 
Initiative, first established in 2003. Revitalized land can be 
used in many beneficial ways, including the creation of public 
parks, the restoration of ecological systems, the establishment 
of multi-purpose developments, and the establishment of new 
businesses. Regardless of whether a property is an abandoned 
industrial facility, a waste disposal area, a former gas 
station, or a Superfund site, this initiative helps to ensure 
that reuse considerations are fully integrated into all EPA 
cleanup decisions and programs. Through the One Clean-up 
Program, the Agency will also work with its partners and 
stakeholders to enhance coordination, planning and 
communication across the full range of Federal, State, tribal 
and local clean-up programs to promote consistency and enhanced 
effectiveness at site cleanups.
    The fiscal year 2006 President's Budget funds the Superfund 
Appropriation at $1.3 billion. Within this total, the Superfund 
Remedial Program provides significant resources in EPA's effort 
to preserve and restore land to productive use. In fiscal year 
2006, the Superfund Remedial Program will continue its clean-up 
and response work to achieve risk reduction, construction 
completion and restoration of contaminated sites to productive 
use. In fiscal year 2006, the Remedial Program anticipates 
completing construction of remedies at 40 Superfund sites.
    Enforcement programs are also critical to the agency's 
ability to clean up the vast majority of the nation's worst 
hazardous sites by securing funding from Potentially 
Responsible Parties (PRPs). The Agency will continue to 
encourage the establishment and use of Special Accounts within 
the Superfund Trust Fund to finance cleanups. These accounts 
segregate site-specific funds obtained from responsible parties 
that complete settlement agreements with EPA and total a 
cumulative $1.5 billion. These funds can create an incentive 
for other PRPs to perform work they might not be willing to 
perform or used by the Agency to fund cleanup. As a result, the 
Agency can cleanup more sites and preserve appropriated Trust 
Fund dollars for sites without viable PRPs.

                   HEALTHY COMMUNITIES AND ECOSYSTEMS

    The fiscal year 2006 President's Budget requests $1.3 
billion to implement national multi-media, multi-stakeholder 
efforts needed to sustain and restore healthy communities and 
ecosystems, which are impacted by the full range of air, water 
and land issues. Programs such as Brownfields, the Great Lakes 
collaboration and the targeted watersheds work must reflect 
local priorities and local stakeholder involvement to be 
effective.
    Proper use and careful selection of chemicals and 
pesticides influence air quality, clean water and the health of 
the land. Carefully targeted research is necessary to keep the 
Agency at the forefront of the science that will point to 
tomorrow's concerns as well as tomorrow's solutions.
    Fiscal year 2006 will be a key year for the chemicals and 
pesticides programs. The High Volume Production chemicals 
program will move from data collection to first-time screening 
for possible risks. Many of these chemicals entered the 
marketplace before the Toxics Substances Control Act was passed 
and EPA's screening process was put in place. Fiscal year 2006 
also marks the final milestone in the 10-year pesticide 
tolerance reassessment program, which ensures older food-use 
pesticides meet the latest scientific standards for safety.
    The Brownfields program is a top environmental priority for 
the Administration. EPA is working with its State, Tribal and 
local partners to meet its objective to sustain, cleanup and 
restore contaminated properties and abandoned sites. Together 
with the extension of the Brownfields tax credit, EPA expects 
to achieve the following in fiscal year 2006: assess 1,000 
Brownfields properties; cleanup 60 properties using Brownfields 
funding; leverage an additional $1 billion in cleanup and 
redevelopment funding; create 5,000 jobs; and train 200 
participants, placing 65 percent in jobs related to the 
Brownfields efforts.
    There is great population and industrial pressure on the 
areas surrounding our large water bodies--the Great Lakes, the 
Chesapeake Bay, the Gulf of Mexico, and our wetlands in 
general. EPA has established special programs to protect and 
restore these unique resources by addressing the 
vulnerabilities of each.
    The Great Lakes program will build on collaborative 
networks to remedy pollution, with a budget proposal to 
increase funding for the Great Lakes Legacy program to $50 
million in order to remediate sediment that was contaminated by 
improperly managed old industrial chemicals. Chesapeake Bay 
resources in this budget total over $20 million. EPA's work in 
the Chesapeake Bay is based on a regional partnership whose 
members have committed to specific actions aimed at reducing 
both nutrient and sediment pollution. Wetlands and estuaries 
are increasingly stressed as coastal population density grows. 
The fiscal year 2006 budget provides over $40 million for our 
work to protect these ecosystems. Again, effective 
collaboration is key to protecting these primary habitats for 
fish, waterfowl and wildlife. Our work with the Corps of 
Engineers will be instrumental in protecting these valuable 
natural resources.
    Toxic chemicals reduction is also the emphasis of Community 
Action for a Renewed Environment project. The requested 
increase of $7 million will offer many more communities the 
opportunity to improve their environment through voluntary 
action. EPA expects to establish 80 CARE programs across the 
Nation in fiscal year 2006, building on experience gained from 
10 projects started in 2005.
    In the research area, over $5 million is requested for the 
Advanced Monitoring Initiative. This initiative will combine 
information technology with remote sensing capabilities, to 
allow faster, more efficient response to changing environmental 
conditions such as forest fires or storm events, as well as 
current ecosystems stressors in sensitive areas such as the 
Great Lakes or the Everglades. EPA also continues to make 
progress in the area of computational toxicology. In fiscal 
year 2006, the program expects to deliver the first alternative 
assay for animal testing of environmental toxicants, a major 
milestone toward the long-term goal of reducing the need for 
animal testing. Other major research efforts include human 
health risk assessments, which will inform agency regulatory 
and policy decisions, and research for ecosystems, which will 
emphasize evaluating the effectiveness of restoration options.
    The President's Budget also includes $23 million for a new 
competitive State and Tribal Performance Fund. The Performance 
Grant Fund will support projects that include tangible, 
performance-based environmental and health outcomes--and that 
can serve as measurement and results-oriented models for 
implementation across the Nation.

                COMPLIANCE AND ENVIRONMENTAL STEWARDSHIP

    The fiscal year 2006 President's Budget requests $761 
million to implement national programs to promote and enforce 
compliance with our environmental laws, and to foster pollution 
prevention and tribal stewardship. The Agency will employ a 
mixture of effective inspection, enforcement and compliance 
assistance strategies. Also within this goal, EPA will protect 
human health and the environment by encouraging innovation and 
providing incentives for governments, businesses, and the 
public to promote environmental stewardship. In addition, EPA 
will assist federally recognized tribes in assessing 
environmental conditions in Indian Country, and will help build 
their capacity to implement environmental programs.
    The Agency's enforcement program works with States, tribes, 
local governments and other Federal agencies to identify the 
most significant risks to human health and the environment, 
address patterns of non-compliance, and work to ensure 
communities or neighborhoods are not disproportionately exposed 
to pollutants. This flexible, strategic use of EPA's and our 
State and tribal partners' resources brought over 1 billion 
pounds of pollution reduction in fiscal year 2004, and helps to 
ensure consistent and fair enforcement.
    EPA also strives to foster a culture of creative 
environmental problem-solving, not only with our State, tribal 
and Federal partners but also with industry, universities and 
others. The result is a high capacity for implementing 
collaborative results-driven innovations and the organizational 
systems to support them. One hundred forty two million dollars 
supports pollution prevention and other efforts to improve 
environmental performance, looking at the full range of 
possible interventions that would reduce waste created, reduce 
highly toxic materials in use, and reduce the energy or water 
resources used. These changes also make good business sense, 
often improving ``the bottom line'' for participating 
companies.
    Agency resources for tribal programs support their 
environmental stewardship through a variety of means in every 
major program: air, water, land and others. In the Compliance 
and Environmental Stewardship goal, General Assistance Grants 
develop tribal capacity to implement environmental programs in 
Indian Country in line with local priorities. In fiscal year 
2006, EPA will support approximately 510 federally recognized 
tribes through these grants.

                          EFFECTIVE MANAGEMENT

    Throughout its operations, EPA is working to maximize 
effectiveness and efficiency, implementing new information 
technology solutions and streamlining operations. The research 
and development areas, for example, will see changes geared 
toward maximizing the effectiveness and relevance of applied 
research throughout the Agency. Continuing to improve internal 
controls and accountability is another priority. Fiscal year 
2006 marks the next phase in our financial systems replacement 
which will enhance our internal systems. For our work with 
external partners, the Exchange Network and the Integrated 
Portal will provide the foundation for States, tribes, the 
public, regulated community and EPA to increase data 
availability, collect better data and enhance the security of 
sensitive data.
    Finally, EPA is making our grant programs work better. We 
are using new tools to help us achieve our goals: increasing 
competition for discretionary grant awards, making grants more 
outcome-oriented to meet Agency performance goals, 
strengthening oversight and accountability and providing more 
transparency to promote an open process.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
